                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-40A                                   Office of Inspections                                September 2013




                 Inspection of
      Embassy Brasilia and Constituent Posts,
                      Brazil




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                               2
Context                                                                                     4
Executive Direction                                                                         6
  Reporting                                                                                 7
  Morale and Communication                                                                  8
  Coordination of Strategic Planning                                                        9
  Security                                                                                  9
  First- and Second-Tour Officers and Specialists                                          10
  Constituent Posts                                                                        11
Mission Growth                                                                             14
  Senior Department Coordinator for Mission Expansion                                      14
  Mission Coordination of Growth                                                           16
  Mission Staffing                                                                         17
Policy and Program Implementation                                                          19
  Consular Programs                                                                        19
  Innovative Practice: Computer Application to Rapidly Process Waiver of Interview Cases   20
  Innovative Practice: Secondary Adjudication Windows                                      25
  Political and Economic Reporting and Analysis                                            26
  Public Diplomacy                                                                         28
Resource Management                                                                        34
  Mission Management Overview                                                              35
  General Services Operations                                                              35
  Facility Management                                                                      39
  Human Resources                                                                          40
  Financial Management                                                                     42
  Information Management                                                                   43
Quality of Life                                                                            50
Management Controls                                                                        51
  Consular Management Controls                                                             52
List of Recommendations                                                                    54
List of Informal Recommendations                                                           59
Principal Officials                                                                        63
Abbreviations                                                                              64




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   Embassy Brasilia is successfully promoting and strengthening a vibrant U.S.-Brazil bilateral
    relationship as Brazil becomes an increasingly important partner in world affairs. A strong
    executive team, headed by an experienced and talented Ambassador, has created a mission
    with a clear purpose and focused agenda.

•   Mission Brazil has expanded rapidly to provide a platform for U.S. economic interests and
    increased bilateral cooperation and to meet the demand for consular services by Brazil’s
    growing middle class. Consulate General Sao Paulo issues more nonimmigrant visas than
    any other U.S. consular section in the world.

•   The Department of State and Mission Brazil’s responses in eliminating the backlog in
    nonimmigrant visa applications has been remarkable. However, coordination involving two
    proposed consulates and the relocation of a third needs improvement. A senior growth
    coordinator position in the Bureau of Western Hemisphere Affairs and a growth coordinator
    at Embassy Brasilia are needed to keep these projects on track.

•   The Consulate General Rio de Janeiro facility remains the mission’s most serious concern.
    The search for a new facility receives less focus in both the mission and the Department of
    State than the situation merits.

•   Economic reporting and export promotion efforts are strong. Political reporting is of lower
    quality and suffers from a lack of context and comment. It tends to downplay or ignore
    negative news.

•   The public affairs section effectively supports mission goals, especially the effort to promote
    English instruction and to support American participation in Brazil’s strategic decision to
    send thousands of students abroad for university study. Cultural programming suffers from
    the front office’s lack of vision and micromanagement of grants.

•   Locally employed staff morale is suffering as the congressionally mandated wage freeze
    makes it impossible for wages to keep pace with inflation and increased salaries in the
    private sector. Just as demoralizing to many locally employed staff is management’s
    perceived lack of communication and leadership on these issues. The embassy and
    constituent posts are developing their own strategies to mitigate the effects of the wage
    freeze, but there is no evidence of a coordinated missionwide approach to the issue.


* On August 20, 2013, the Department of State designated the consulate in Recife as a U.S.
consulate general.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.


                                       2
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

The inspection took place in Washington, DC, between April 8 and May 1, 2013, and in the
following locations in Brazil: Brasilia between May 2-13 and June 17-20, 2013; Rio de Janeiro
and Recife between May 14-27, 2013; Salvador da Bahia between May 17-20, 2013; Belo
Horizonte between May 28-29, 2013; Porto Alegre on June 3, 2013; and Sao Paulo between May
28 and June 16, 2013. Ambassador Kenton W. Keith (team leader), Ambassador Gene Christy
(co-team leader), Caroline Mangelsdorf (deputy team leader), Thomas Allsbury, Betsy
Anderson, Alison Barkley, Sylvia Bazala, Ronda Capeles, Pasquale Capriglione, Laurent
Charbonnet, Eric Chavera, George Frederick, Michael Hurley, Mark Mayfield, Robert Mustain,
John Philibin, Matthew Ragnetti, Moosa Valli and Roman Zawada conducted the inspection.

The team did not inspect the consular agencies in Manaus or Fortaleza, or the container
inspection program in Santos.




                                       3
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Context
        Brazil is in the midst of rapid domestic development and expanding international
engagement. Along with other BRICS nations (Brazil, Russia, India, China, South Africa), it is
surging to new status as an economic power. Brazil is the world’s seventh largest economy and
the United States’ eighth largest trading partner. Brazil is also the world’s seventh most populous
nation. Its 194 million inhabitants share a resource-rich landmass larger than the United States’
48 contiguous states. The country is intent on developing vast natural resources, diversifying its
economy, and creating a globalized private sector. It is aggressively expanding commercial ties
and has attracted major international events such as the 2014 World Cup and the 2016 Olympic
Games. Implementing an ambitious global engagement agenda, it opened 70 new embassies or
other diplomatic missions in the last decade. After 15 years of broadly distributed economic
growth, a majority of Brazilians are now defined as middle class. But with rising standards of
living have come rising expectations.

        Widespread discontent with the government boiled over in a series of large
demonstrations in multiple cities during this inspection. Due in part to outdated regulatory and
tax regimes that raise costs and retard growth, economic growth was expected to slow to 2-3
percent in 2013, while inflation may reach 6 percent. Rising demand for skilled and unskilled
labor has pushed up salaries, but the mission’s locally employed (LE) staff has suffered under the
multiyear wage freeze, a source of considerable frustration.

         Mission Brazil has mirrored this growth as the U.S. Government seeks to deepen and
broaden economic, political, and cultural ties. The two governments now have 30 high-level
bilateral mechanisms in areas such as education, energy, aviation, defense, trade, race and gender
rights, consular, and preparation for major international sporting events. The mission devotes
considerable time and energy preparing substantively and logistically for these dialogues and the
high-level official visitors they bring.

       Mission Brazil’s expansion is especially noticeable in consular sections, which have
grown from 44 consular officers in FY 2011 to 112 at the end of FY 2012. The Department and
the mission have devoted substantial financial and human resources to position the mission to
respond to growth in the bilateral relationship and dramatically increased nonimmigrant visa
(NIV) demand.

        Mission Brazil also consists of large consulates general in Sao Paulo and Rio de Janeiro,
a medium-sized consulate in Recife, a Foreign Commercial Service office in Belo Horizonte that
also hosts a Department of State (Department) Foreign Service officer and four consular
agencies. New consulates in Belo Horizonte and Porto Alegre are projected to open in the first
quarter of 2015, the same year Consulate Recife is scheduled to move into a new facility. (The
Porto Alegre consular agency will close when the new consulate opens.) Eleven other Federal
agencies have staff in Brazil.

       Total staffing in Mission Brazil is 1,418, including 510 U.S. direct-hire, eligible family
member, and contract positions, and 908 LE staff positions. With the addition of Consulates
Porto Alegre and Belo Horizonte and growth trends among all agencies, staffing is expected to


                                       4
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

increase 15 percent by 2016, with 62 additional U.S. direct hires and 150 additional LE staff
members.




                                       5
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Brazil is changing and the mission is changing to meet the challenges of a new and
vibrant bilateral relationship under the Ambassador’s leadership. Coming from Washington,
where he was the Bureau of Western Hemisphere Affairs (WHA) Assistant Secretary, the
Ambassador recognized the time had come for the United States to put greater focus on regional
changes with strategic importance, such as Brazil’s emergence as a nation with economic and
political successes to support its international leadership ambitions. The mission he found when
he arrived bears little resemblance to the one he will leave to a successor. It has clear purpose
and a focused agenda. Staff has been augmented to support that agenda. Many facilities have
been renovated or repurposed to support the mission’s diplomatic efforts.

        The Ambassador has the strong support of Mission Brazil staff, including employees
from the mission’s 11 other agencies, who view him as a skilled, language-qualified professional
with an unerring personal touch. He has instilled throughout the mission the goal of
reinvigorating the bilateral relationship for the 21st century. He is ably guiding a strategic shift in
the U.S.-Brazil relationship, treating Brazil as a partner to work with the United States to assist
other countries in military reform, law enforcement, and economic development.

        The Ambassador and the deputy chief of mission (DCM) have knitted together a
missionwide, interagency team that very successfully promotes U.S. interests. The “all-mission”
approach to supporting U.S. companies seeking to export goods and services to Brazil is strong
and coherent. Senior interagency officers described an executive team ready to intervene with the
Brazilian Government, whether to press for regulatory changes, unravel trade disputes, or create
access for many of the 2,867 official visitors who came to Brazil in FY 2012. They speak of a
front office staff, including two office management specialists and a new staff assistant, who
make an open-door policy actually work. The front office received positive reviews for the
support it provided during the rapid expansion of consular services in Brazil.

         The DCM coordinates operations in Consulates General Rio de Janeiro and Sao Paulo,
Consulate Recife, and the Department representative at the Foreign Commercial Service office in
Belo Horizonte through regular phone calls and email, weekly meetings with section heads, and
interagency meetings across specific policy subjects. The DCM’s most time-demanding
challenge is maintaining focus on policy priorities. This is an easier task at the embassy where he
has frequent interaction with staff. He has been the day-to-day implementer of the Ambassador’s
plan to better coordinate the components of the mission. In that role, he has been seen as
micromanaging some aspects of the constituent posts’ operations. The consulates general in Rio
de Janeiro and Sao Paulo are run by experienced senior officers with demonstrated management
and policy skills. Yet the front office has taken some even minor decisionmaking authority out of
their hands. In a poorly managed move to enforce policy discipline, the DCM reviews all public
diplomacy grants, no matter how small, which has resulted in delays of weeks or even months in
grants for proposals such as a speaker on university reform, a common-heritage book, and a
girls’ soccer project. This requirement has demoralized public diplomacy staff and has led to
missed opportunities and underutilization of cultural diplomacy.




                                        6
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 1: Embassy Brasilia should discontinue its policy of requiring the deputy
chief of mission to approve all public affairs grants and return authority for grant management to
the public affairs officers at constituent posts, in consultation with consuls general. (Action:
Embassy Brasilia)

       The DCM also has taken the lead in the demanding task of dealing with staffing and
resource issues stemming from the addition of 200-plus personnel to support the rapid expansion
of consular services and consular expansion projects at all four existing posts. In this case, the
DCM’s attention to detail and management style have contributed to the smooth and effective
functioning of the mission in a period of extraordinary growth.

        Management of the projects to open two new consulates and the relocation of Consulate
Recife’s facility by both the Department and the mission, however, has not benefitted from the
kind of strategic thinking that the Ambassador has provided to the expansion of the bilateral
relationship. This issue is discussed in more detail later in the report.

       The Ambassador and DCM strongly support the Equal Employment Opportunity
program.

Reporting

        The mission’s economic reporting is good, with an emphasis on information useful to
U.S. businesses. Political reporting is lackluster and rarely contains substantive comments or
analysis. Washington end-users of mission reporting were concerned that the mission
downplayed or did not report negative news on Brazil’s human rights, social development and
inclusion, trafficking in persons, serious crime, and counterterrorism. Extensive review by
inspectors of several months of mission reporting validated those concerns. The team also found
reporting officers have not developed enough sources outside the government.

       Consulate-produced cables that touch on sensitive or national-level issues must be
cleared by Embassy Brasilia, usually by the economic or political counselor but often by the
DCM and even the Ambassador. The embassy’s review provides quality control and policy
perspective but also appears to shade reporting to give a positive spin on political developments.

        The outbreak of massive demonstrations during the inspection in virtually all major cities
caught the mission by surprise, as it did the Government of Brazil. Inspectors saw the latent
effects of weak contact work and a missionwide discounting of simmering social discontent in
the embassy’s initially slow and disorganized response to the events. In the following days,
embassy and consulate political reporting staff had to develop contacts in nongovernmental
political circles in order to go beyond what had already been reported in the press.

        The Ambassador is aware of the criticism of overly positive mission reporting, but
believes it is important for Washington to understand the opportunity presented by Brazil’s
political, economic, and social progress. Furthermore, he asserts that Wikileaks showed the
dangers of incautiously frank commentary. Whatever the rationale, the embassy has created an
impression of partiality that has weakened its credibility among Washington readers of its
political reporting. The picture painted for Washington is incomplete and could be better-
informed, including through strengthened contact work.
                                       7
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 2: Embassy Brasilia should issue written guidance to reporting officers that
reporting should be objective, broadly sourced, and include comments and analysis. (Action:
Embassy Brasilia)

Morale and Communication

        The OIG team consistently heard communication cited as a problem for the mission. The
most dramatic example is the dissolution of LE staff committees at the embassy and two of the
three consulates. The LE staff committee in Recife continues to operate only because employees
there feel the principal officer listens to them, even if she cannot take action to address their
concerns.

        Mission morale is deeply affected by the U.S. Governmentwide wage freeze. Long-term
LE staff have been especially hard-hit as salaries are not keeping up with inflation or private
sector wages, which are now rising faster than inflation. Mission management expressed
concerns that LE staff would leave for higher paying jobs, but this has yet to occur. The LE staff
has provided suggestions to mission management on ways to mitigate the wage freeze. Many
local employees told inspectors that a lack of leadership and communication—including months-
long delays in responding to their suggestions—was more demoralizing than the actual wage
freeze. After an unsuccessful mission attempt to get the Department to grant an exception, it is
clear that little can be done about the wage freeze in the current circumstances. The embassy and
constituent posts have instituted or are researching proposals—consistent with the freeze
guidelines—that could improve their situation. But the mission is not taking a comprehensive
approach to mitigating the effects of the wage freeze.

       Informal Recommendation 1: Embassy Brasilia should re-engage with locally
       employed staff and committees to explore proposals to mitigate the effects of the wage
       freeze.

        Weaknesses in communication also affect the ability of constituent posts to keep abreast
of developments across the mission. For example, principal officers from the constituent posts
participate in country team meetings only during occasional visits to Brasilia. Summaries of the
meetings are available, but principal officers do not have the opportunity to participate, add
context, or ask questions. The embassy and constituent posts have technology available to allow
principal officers to participate virtually in these meetings. Their participation would reduce the
perception that the embassy makes decisions that affect the consulates without consulting them.

Recommendation 3: Embassy Brasilia should include principal officers from the constituent
posts in weekly country team meetings through digital video conferencing. (Action: Embassy
Brasilia)

        At the time of the inspection, the management section in Brasilia communicated with
consulate management officers through email exchanges, weekly phone calls, and monthly
digital video conferences with the management minister-counselor. At the suggestion of the
inspectors, the management minister-counselor initiated weekly conference calls involving
embassy and consulate management officers. The constituent posts welcomed this action to
improve communication.

                                       8
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Coordination of Strategic Planning

        Embassy Brasilia developed its 2014-2016 Integrated Country Strategy report with
inadequate participation by the constituent posts. The embassy asked principal officers to review
the draft strategy only after the document had already been sent to Washington. Consulate
General Sao Paulo took the initiative to write a local plan identifying areas where the consulate
general could contribute to the Integrated Country Strategy goals, and Embassy Brasilia
appropriately asked other principal officers to follow suit. This is an inadequate method for
arriving at an “integrated” document. Moreover, it gives the principal officers the impression that
their contributions are less valued than should be the case.

Recommendation 4: Embassy Brasilia should include constituent posts in the preparation of
strategic planning documents, including the Integrated Country Strategy and the Mission
Resource Request. (Action: Embassy Brasilia)

Representation and Travel Funding

        The lack of collaborative, strategic budget planning diminishes the mission’s ability to
use travel and representation funds effectively. Consulate staff told inspectors they are unclear
about the embassy’s priorities and have the sense that reporting from other cities in their districts
is a low priority. A more transparent allocation process for travel and representational funds
would help the mission determine the best uses for the very limited funds.

Recommendation 5: Embassy Brasilia should develop coordinated and appropriate travel and
representational budgets for all mission sections. (Action: Embassy Brasilia)

       The embassy’s current policy is to distribute travel and representation funds quarterly and
have the constituent posts compete for additional bureau funding at year’s end. Awarding these
funds depends on how well the constituent post has used its budget in the past. The policy is not
well understood and makes it difficult for managers to plan ahead. In addition, the embassy does
not adequately inform constituent posts of their budgets on an ongoing basis.

         Informal Recommendation 2: Embassy Brasilia should post representation and travel
         budgets on its intranet site and update them weekly.

Security

       The Ambassador and DCM support the mission’s security program. With the exception
of Consulate General Rio de Janeiro, mission staff said that they feel safe at home and in the
workplace in spite of the serious crime that exists in the large cities.

              The consulate general building in downtown Rio de Janeiro remains the mission’s key
 security challenge. The current facility was constructed in 1953 and is located on a busy street
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                          [ It has been the focus of OIG recommendations for at least two decades.
 The mission over the Ryears has taken the task of finding a new site seriously, expending energy
                                          e
 and resources to solved this enduring problem. However, all proposed sites have been rejected by
 the Bureau of Overseas                   a Buildings Operations (OBO). Always, the low-threat nature of Rio de
 Janeiro has kept the project             c       as a low priority. After submitting several proposals in the past few
                          t
                                             9
                          e
                          d     SENSITIVE BUT UNCLASSIFIED
                          ]
                          SENSITIVE BUT UNCLASSIFIED

years, the staff has become frustrated with the lack of progress and what it views as changing
guidance. At times, OBO favored a building site; at other times, commercial space. At the time
of the inspection, the mission was not considering commercial space. Instead, it has focused on a
former convention center site located on a narrow, winding two-lane road in a protected forest on
the outskirts of the city. The OIG team agrees with two previous OBO and Bureau of Diplomatic
Security surveys that found the site unsuitable due to security, customer access, and rezoning
issues. Rio de Janeiro is now on OBO’s long-range plan for a new building in 2018, and OBO
has scheduled a site survey visit for summer 2013. Forward movement on this problem will
require the mission’s continued focus and action. Establishing a consulate general working group
would be useful.

Recommendation 6: Embassy Brasilia, in coordination with the Bureaus of Overseas Buildings
Operations and Western Hemisphere Affairs, should investigate all possibilities, including
commercial office space, for a new facility for Consulate General Rio de Janeiro that meets the
2018 timeline set by the Bureau of Overseas Buildings Operations. (Action: Embassy Brasilia, in
coordination with OBO and WHA)

       [Redacted] (b) (5), [Redacted] (b) (7)(F)


                                                                            .

        Mission Brazil’s security program is discussed in more detail in the classified annex to
this report.

First- and Second-Tour Officers and Specialists

         The mission’s 106 first- and second-tour (FAST) officers and specialists express
satisfaction with the mentoring and tradecraft training they receive. All posts have active FAST
committees, which, except in Consulate General Rio de Janeiro, take the lead on coordinating
responses to requests for volunteers for temporary duty, control officer, and other opportunities
for exposure to work outside the employee’s assigned section. The missionwide “Route 66”
program assigned FAST officers their own towns where they would represent the United States
in visits and add to the mission’s knowledge bank through their reporting. This program
potentially is of great value to FAST officers’ professional development. However, now that
travel money is scarce, the program has diverted already insufficient funds away from core
reporting responsibilities.

       One of the major strengths of these new Foreign Service officers is their range of prior
experience. One FAST officer has already created software that will improve consular
operations. Over the last 2 years, the mission has dealt with major NIV backlogs that became a
major irritant in bilateral relations. Now that the NIV applicant backlog has been eliminated and
workload has diminished, the mission could challenge FAST officers and specialists to study
mission processes and plans with an eye to innovative approaches. Consulate General Sao
Paulo’s project-oriented FAST officer mentoring program could serve as a model for the
mission.

                                       10
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 3: Embassy Brasilia should survey the resources of its first-
       and second-tour officers and specialists and identify individuals to lead working groups
       to review processes and plans for the next fiscal year.

Constituent Posts

       All three consulates have grown to handle increasing NIV demand. The consulates
provide strong economic and business reporting, but less impressive political reporting. All are
coping with morale issues stemming from the wage freeze.

Consulate General Rio de Janeiro

        Rio de Janeiro is emblematic of the new Brazil. Oil and gas revenue flows into state
coffers, and private sector executives from around the world arrive every day seeking to gain a
share of the $400 billion plus that Brazil is expected to invest in energy exploration and
development before 2020. The city is reclaiming its civic pride, which was lost when a new
national capital was established in Brasilia 53 years ago. Indeed, the world appears to be taking
special notice of Rio de Janeiro: the Pope visited in summer 2013, and the city is hosting the
World Cup in 2014 and the Summer Olympic Games in 2016. The burgeoning middle class’
desire for tourist visas to the United States resulted in long consular waiting lines and a
subsequent expansion of consular facilities, putting strains on the consulate general that are only
now easing. A regular flow of official U.S. visitors leaves Consulate General Rio de Janeiro
struggling to maintain its reporting and management duties.

        Washington end-users value the consulate general’s reporting on the burgeoning energy
sector. Rio de Janeiro is drawing attention for its active civil society and social development,
including a popular effort to pacify its favelas (shantytowns that are often pockets of poverty
prone to drug violence and gang control). Consulate General Rio de Janeiro’s weekly round-up
has done a good job reporting on the progress Brazil is making in areas such as racial inclusion,
trafficking in persons, and human rights. As with the rest of the mission, however, Rio de Janeiro
reporting has been less thorough documenting negative developments.

        The consul general is respected by his staff for his leadership, judgment, and low-key
management style. He advances U.S. business interests and has worked with Foreign
Commercial Service to help U.S. companies successfully compete for market share in the energy
sector. The consul general is a strong supporter of the public affairs section, meeting personally
with all Brazilian participants in exchange programs, which enhances the programs themselves
and provides an important source of feedback. The consul general’s single greatest challenge will
be finding a new, more secure facility. To date, he has not dedicated enough time and energy to
this issue.

Consulate General Sao Paulo

        Sao Paulo is Brazil’s business capital and home to a large U.S. business community.
Reporting has been strong on economic and business issues, and the consul general is regarded
by the business community as an important interlocutor. He is a fluent Portuguese speaker and a
skilled briefer on Brazilian macroeconomics, the regulatory environment, and the challenges that

                                       11
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

face American business in Sao Paolo and southern Brazil. The consular operation has expanded
rapidly to meet enormous tourist and business visa demand.

        The expansion of Brazil’s economic reach has increased public attention to ills, such as
money laundering, corruption, finance of terrorism, and the presence of Hezbollah. Reporting on
these topics has been less than thorough, however. Limited travel funding has hindered first-
person reporting and contact work in the five states that make up the Sao Paulo consulate district.

        The consul general’s calm, steady management style is appreciated by his staff. He is an
excellent mentor, and Sao Paulo’s program for the FAST officers and specialists could serve as a
model for the rest of the mission. But like the embassy front office, he does not make effective
use of his cultural section resources. Given his Portuguese skills and outreach abilities, he could
be a key component of the more sophisticated cultural strategy recommended by the OIG team.

Consulate Recife

        Recife, located in Brazil’s northeast, has a consular district that includes 8 states and 40
million people. Even this relatively poor part of Brazil has experienced dramatic economic
growth and expansion of its middle class, leading to a surge in demand for NIVs and an
explosion of commercial opportunities. In response, Consulate Recife has expanded its consular
services and outreach. When OIG last inspected Mission Brazil in 2007, Consulate Recife
staffing included 3 U.S. direct hires and less than 20 LE staff members. Since 2011, U.S. direct-
hire staffing has grown to 21 and LE staff has tripled. Foreign Commercial Service filled a new
U.S. direct-hire position in 2013.

        The consulate operates in a converted private residence that is too small for current
operations. To accommodate increased consular services and staff growth, consulate
management staff in the last 3 years subdivided and repurposed every space, an arrangement that
several long-serving staff characterized as being stuffed like sardines in a can. The Department
plans to build a new consulate but the original completion date of late 2013 has slipped to the
first quarter of 2015. Given the nearly 2 years more that consulate staff will work in cramped and
unhealthy conditions, inspectors discussed with mission leaders the lease of temporary office
spaces to relieve pressure and improve working conditions.

       Informal Recommendation 4: Embassy Brasilia should identify and fund rental of
       temporary office spaces in Recife to relieve overcrowding until new consulate facilities
       are completed.

         Consulate Recife’s principal officer has become the mission’s expert on northeast Brazil
and expanded outreach and commercial promotion among influential Brazilians. Dynamic and
self-assured, the principal officer is admired in the consulate for her skill in promoting the
priorities of the Ambassador, the regional bureau, and the Department. Her leadership within the
consulate has not been as successful. The LE staff respect her, and FAST officers welcome her
attention to their professional development. But she has conveyed to consular officers, who make
up a majority of American staff, and to inspectors her dislike for consular and management
matters. This attitude undermines the consular officer’s respect for her and sets a poor example
for consulate section chiefs, several of whom are in leadership positions for the first time.
Inspectors counseled her regarding these issues.
                                        12
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


        The embassy has asked the Department to raise the grade level of the principal officer
position to FS-01 and to elevate the consulate to consulate general status. The cases made for
both requests were sound.




                                       13
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Mission Growth
        The mission is growing to respond to Brazil’s rapid emergence as an international
economic and political power and a concomitant expansion of U.S.-Brazil engagement. Between
2002 and 2012, Brazil moved from the world’s 15th to 7th largest economy as measured in gross
domestic product. During that period, the number of middle-class Brazilians grew by 36 million,
an increase of more than 50 percent. This growth has led to dramatic increases in travel to the
United States, where Brazilian visitors spent more than $9 billion in 2012, making them our fifth
largest source of visitor spending.

        The most visible area of expansion has been Brazilians’ demand for tourist and business
visas. Visa adjudications went from fewer than 200,000 in 2004 to more than 1 million in 2012.
Brazilian travelers to the United States increased from 400,000 in 2004 to about 1.5 million in
2011. The number of American consular officers in the mission quadrupled, while the number of
LE staff increased by almost 140 percent.

        The Department’s and Mission Brazil’s response to the visa backlog and related bilateral
issues has been remarkable and provides a template for how to handle similar situations in the
future. The Department, including WHA, the Bureau of Consular Affairs (CA), OBO, the Bureau
of Diplomatic Security, and the Foreign Service Institute, marshaled resources to fix
shortcomings and acted quickly to put changes into place. CA identified some of the
Department’s best consular managers to serve as Brazil’s minister-counselor for consular affairs
and to lead the mission’s consular sections. The bureaus provided adequate funding. The
Department used its limited noncareer appointment (LNA) mechanism for 18 new consular
interviewers with language skills to meet demand. Existing facilities were renovated and
expanded. A new consulate facility in Recife and new consulates in Belo Horizonte and Porto
Alegre are on the drawing board.

        Not all aspects of the growth process have gone smoothly or on schedule. Completion of
the Belo Horizonte and Porto Alegre projects and the replacement of Recife’s inadequate facility
are more than a year behind schedule. Staff identified in accord with the original timeline are
arriving without clear job responsibilities, facilities, or housing to receive them. Unneeded
vehicles have arrived and are in storage. In Porto Alegre, the Department will pay at least $1.5
million in rent for a new consulate space before the first contractor arrives to begin work.
Inadequate coordination and communication among various Department and mission elements
are primarily responsible for delays and instances of mismanagement of the growth process.

Senior Department Coordinator for Mission Expansion

       Presidents Obama and Rousseff announced in April 2012 that the United States would
open new consulates in Brazil. Their announcement, as well as an Executive Order 1 that
preceded it, resulted from an urgent need to meet expanding demand for U.S. visas. Now the

1
 Executive Order 13597: Establishing Visa and Foreign Visitor Processing Goals and the Task Force on Travel
and Competitiveness (January 19, 2012) included as top goals for the Department: increase nonimmigrant visa
capacity in China and Brazil by 40 percent, and ensure that 80 percent of nonimmigrant visa applicants worldwide
are interviewed within 3 weeks of receipt of application.

                                           14
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

NIV backlog of past years is gone. Wait times have fallen from 120 days to approximately two.
Consular section expansions in Brasilia, Rio de Janeiro, and Sao Paulo, and cramming additional
consular officers into Recife’s existing facility, made this turnaround possible. There is no more
space to expand in the existing facilities. Opening new consulates and moving to a new facility
in Recife are crucial if the mission is to meet projected visa demand.

        The mission asserted in 2011 that five new consulates would be needed to meet visa
demand. Only two—Belo Horizonte and Porto Alegre—have Department and congressional
approval. WHA and bureaus and offices that report to the Office of the Under Secretary for
Management are the key Department elements involved in Mission Brazil’s growth. Their ability
to maintain focus on the steps required to meet the two presidents’ announcement has varied. CA
has been consistently engaged up to the level of the assistant secretary, providing human and
financial resources to meet visa demand and expand facilities. The Bureau of Human Resources
and the Foreign Service Institute both went the extra mile to provide and train new consular staff.
The Bureau of Diplomatic Security has engaged in assessing and preparing to provide security
support for all sites.

         WHA’s executive office has been engaged, but it has not taken leadership in managing
the Department’s response to the decisions to add two consulates and move the Consulate Recife
facility. As the Benghazi Accountability Review Board report 2 reinforced, regional bureaus may
share in the responsibility for responding to overseas mission needs, but they are unique in
bearing responsibility for every aspect of mission support. OBO, which has sole responsibility
for leasing or purchasing new facilities, funding many aspects of the mission’s expansion plans,
and providing construction oversight, has been inconsistent in the level of attention and resources
it has given.

        The director of the WHA executive office has served as a key point of contact for
Embassy Brasilia’s management section on expansion issues. The director is supported by a
deputy, a post management officer, and, as needed, others in the executive office. However, the
director and his deputy have a wide range of responsibilities to support the entire bureau and
cannot devote full time to Brazil. No one in the executive office works exclusively on Brazil
issues.

         To address the explosive growth of U.S. interests in China, the Department prepared two
          3
reports that looked at the resources available and required to manage U.S. interests at diplomatic
facilities in China. The second report cited the Bureau of East Asian and Pacific Affairs’ creation
of a new Senior Foreign Service deputy executive director position to focus solely on China
initiatives and resource requirements. Over time, a retired Senior Foreign Service management
officer working “when actually employed” and with extensive experience in Asia assumed and
continues to have this oversight and coordination role. In creating the position, the bureau
understood that this person required rank, Department management experience, and singular
focus. WHA compares growth processes in Brazil to those in China, but has no one in a similar
position.


2
    Accountability Review Board report on Benghazi (Unclassified), U.S. Department of State, Dec 18, 2012.
3
    China 2000, issued December 1996 and Beyond China 2000, issued June 2002.

                                             15
                                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

Recommendation 7: The Bureau of Western Hemisphere Affairs should create a senior position
in its executive office dedicated exclusively to providing oversight of Mission Brazil’s growth
and coordinating with other Department offices. (Action: WHA)

Mission Coordination of Growth

        Embassy Brasilia’s management section is responsible for identifying actions required to
open the two new consulates, replace the consulate in Recife, and expand visa operations in
Brasilia, Sao Paulo, and Rio de Janeiro. For the two new consulates, the mission developed a
detailed spreadsheet that identified all steps needed to open the posts, with timelines. The section
hosted regular consular expansion working group meetings with elements involved in mission
expansion, bringing in the representative from Belo Horizonte via conference calls. These
meetings have helped the mission track progress, identify issues, and seek Department action or
decisions. Until the OIG team pointed out the problem, Consulate Recife had not been included
in these working group meetings, resulting in incomplete communication about Recife-specific
issues.

        While coordination efforts in Embassy Brasilia have identified and addressed many
expansion-related issues, mission management tend to defer to OBO or allow decisions to go
unreviewed or opportunities to be lost. Currently, the embassy’s minister-counselor for
management affairs and its management officer have overlapping responsibilities for various
aspects of growth management. Because of other responsibilities, the two officers have not given
sufficient strategic-level attention to these would-be consulates or to the project in Recife.

        In Belo Horizonte, deference to OBO and mission officers’ irregular travel led to several
months’ delay in recognizing opportunities that had potential to speed the process and reduce
costs. Similarly, the mission has not responded adequately to the need for temporary office
spaces in Recife and Belo Horizonte. The decision to bring the staff intended for Belo Horizonte
and Porto Alegre to Brasilia and Sao Paulo respectively will add new layers of complexity to the
preparations for opening both consulates. The assigned principal officers face the prospect of
spending 2 years of a 3-year tour unable to carry out the assignments for which they were
selected—a potential waste of human and financial resources. 4 Decisions in Washington, such as
the Under Secretary for Management’s determination that visa fees could not be used to fund
temporary office spaces in Belo Horizonte and Porto Alegre, as well as infrequent visits by
Washington-based OBO and the Bureau of Diplomatic Security, explain some of these
shortcomings. The absence of anyone in Embassy Brasilia dedicated solely to providing day-to-
day oversight of the new consulates’ development and reporting regularly to mission leadership
contributed to missed opportunities and miscommunication. This shortcoming needs to be
addressed without delay.

Recommendation 8: Embassy Brasilia, in coordination with the Bureau of Western Hemisphere
Affairs and the Bureau of Human Resources, should create a position in the Brasilia management
section dedicated to providing day-to-day oversight of all new consulate facilities and operations
until they are operational. (Action: Embassy Brasilia, in coordination with WHA and DGHR)


4
    The Department estimates the annual cost of an overseas U.S. direct-hire position to be $570,000.

                                              16
                                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        Based on the announced intention to open new consulates by the end of 2013, WHA and
the Bureau of Human Resources identified and assigned personnel to fill principal officer,
management officer, and regional security officer positions in Porto Alegre beginning in April
2013, and in Belo Horizonte between June and August 2013. An officer, originally assigned to
staff an American Presence Post, has been based in Belo Horizonte since June 2012. At the time
of the inspection, the mission did not have either an agreed name for these consulates-in-waiting
or a clear statement of work to identify roles and responsibilities for the assigned staff.

         The experience of the officer working in Belo Horizonte demonstrates the shortcomings
of inadequate planning. That officer has operated as an adjunct to Consulate General Rio de
Janeiro, where she is assigned, and has relied on both the consulate general and the embassy to
provide administrative, information technology, and security support. She has not, however,
consistently received clear guidance on where to look for support and has had to cobble together
travel, representation, and operating funds, sometimes spending her own funds to pay, for
example, an official phone bill. Before the inspection, there were no separate budgets, other than
travel, for the interim operations in Belo Horizonte or Porto Alegre. The lack of established and
written guidance related to support and operations of the consulates-in-waiting has been
inefficient and created potential for assigned personnel to make unauthorized commitments.

       Informal Recommendation 5: Embassy Brasilia should develop standard operating
       procedures and separate operating budgets for the Belo Horizonte and Porto Alegre staff
       located in Embassy Brasilia and Consulate General Sao Paulo.

         The officer in Belo Horizonte, identified as a public affairs officer in embassy
documents, also handles non-public diplomacy activities. She has carried out successful public
diplomacy activities and has followed embassy guidance to engage in outreach activities and
build a base of contacts. She also supported Department and mission teams searching for the new
facility, and more recently, served as the embassy’s scout in searching for temporary office
space. She juggled well many target-of-opportunity taskings from the embassy that are outside
public diplomacy and outreach duties. Local officials have come to think that her informal
presence and self-designation as “consul for Minas Gerais” constitutes a de facto consulate,
albeit one that has neither official standing nor ability to provide consular services. Relying on
her presence and energy, and in the absence of a clearly defined role, the mission has been able
to adopt an approach of benign neglect with respect to support and mission creep. Based on this
example, the mission’s identification and assignment of officers without clearly defined duties
working in offices with vague statements of purpose creates potential for confusion about the
purpose and expectations of the officers assigned to those posts before they open officially.

       Informal Recommendation 6: Embassy Brasilia should prepare statements of purpose
       for the temporary offices in Belo Horizonte and Porto Alegre and work requirements
       statements for U.S. direct-hire and locally employed staffs in those transitional offices,
       and request concurrence from Department bureaus and offices involved in the mission’s
       growth.

Mission Staffing

       International Cooperative Administrative Support Services (ICASS) staffing has kept up
with mission growth. However, staffing and workload are unevenly matched in some
                                       17
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

administrative support sections. With centralization of financial management functions in
Brasilia, an eighth LE accountant and a third U.S. direct-hire position may be needed there. At
Consulate General Rio de Janeiro, housing and leasing challenges point to upgrading the housing
clerk to a full housing assistant position. Embassy Brasilia and Consulate General Sao Paulo
need housing make-ready coordinators. Mission Brazil’s consolidated warehouse at Consulate
General Sao Paulo employs only four warehousemen, while the much smaller embassy
warehouse in Brasilia has seven. Embassy Brasilia’s information technology total user footprint
is 20 percent larger than Consulate General Sao Paulo, but it is supported by twice as many
information systems administrators. Failure to match human resources with operational needs
results in inadequate customer service and internal controls.

Recommendation 9: Embassy Brasilia should complete an analysis of its International
Cooperative Administrative Support Services staffing and make adjustments as needed.
(Action: Embassy Brasilia)

        There are 108 vacant LE positions in Mission Brazil. At Consulate General Sao Paulo,
two of six drivers, two of six warehouse laborer positions, and three facilities management
positions are vacant. One of three housing positions at Embassy Brasilia is vacant. To stay within
sequestration budget restrictions, the Department’s policy is to fill only one of every two LE staff
vacancies. To comply with this one-for-two policy, WHA approves every LE vacancy filled
within the bureau. In addition, WHA had imposed its own double jeopardy rule to discourage
frivolous requests. If WHA denied a request to fill a vacancy, even within sequestration
guidelines, the requesting post will lose funding for that position permanently. Mission staff told
inspectors that this policy made them hesitant to request that LE staff vacancies be filled. After
inspectors raised this issue with WHA, the bureau rescinded the policy as this inspection was
ending.




                                       18
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Consular Programs

        Two years ago, Mission Brazil faced a backlog of more than 220,000 applicants waiting
for an NIV interview and wait times of up to 120 days for an appointment. The wait times had
become a source of serious friction in the U.S.-Brazil bilateral relationship. U.S. businesses
pushed for improvements, conscious of a statistic that claimed one U.S. travel and tourism job
was created for every 65 additional international visitors to the United States. Executive Order
13597, which set priorities to increase consular capacity in China and Brazil and to reduce NIV
backlogs around the world, helped to break through logjams and ensure that Mission Brazil and
its consular team got the staff and resources they needed. The consular team in Mission Brazil
successfully eliminated the NIV backlog. The way the team achieved this dramatic turnaround
holds some important lessons for the Department about how to deal with workload demand.

        First, the mission and the Department made sure that the posts had sufficient resources,
including adequate U.S. direct-hire and LE staffing. The Department adapted its LNA hiring
mechanism to recruit visa adjudicators to supplement the many FAST officers assigned to Brazil.
Both LNA and FAST employees required training and developmental opportunities, which
mission staffing levels did not always allow for in the past. WHA and Mission Brazil also made
sure that staffing in the management section grew along with the increase in consular staff to
provide appropriate levels of support. Now that the backlogs are under control, adequate staffing
levels enable the mission to provide temporary duty support for consular sections in other posts
around the world.

        Second, the minister-counselor for consular affairs and other consular leaders in Mission
Brazil essentially created an innovation laboratory, encouraging and testing new ideas, quickly
adopting the successful ones, and extending them to all consular sections in the country.
Managers implemented a culture of continuous improvement, using process mapping and metrics
to assess the sections’ work, eliminate unnecessary steps, and improve customer service. FAST
officers on temporary duty assignments use those opportunities to introduce Brazil’s process
improvements to the posts they visit, extending the effects of the lessons learned from managing
growth in consular workload in Brazil.




                                       19
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Innovative Practice: Computer Application to Rapidly Process Waiver of Interview Cases

Innovative Practice: Computer Application to Rapidly Process Waiver of Interview Cases

Issue: Processing NIV cases for which an interview is waived can be time consuming. Officers
have to individually open the files, wait for them to load, and enter repetitive annotation
language.

Response: An officer at Consulate General Sao Paulo developed an application that opens an
entire batch of files at once, inserts standard annotations, and otherwise sorts the cases for more
efficient processing.

Result: The application resulted in much faster processing of NIV cases and an overall saving in
officer time.

Limited Noncareer Appointment Consular Adjudicators

        To address a critical need for additional consular NIV adjudicators in Brazil, the
Department created a pilot program to hire Portuguese speakers as LNAs. Under the program,
which became permanent during this inspection, the Department appoints LNAs for an initial 13-
month period (changed to 18 months for future LNAs). The Department can extend this
appointment for up to 5 years, based on supervisor evaluations, a review process in Washington,
and the needs of the service. Although LNAs are fully integrated into consular operations, they
are not career Foreign Service officers. Those who wish to join the Foreign Service must follow
the normal hiring procedures.

        The program has been successful. It has added a group of 18 language-qualified visa
adjudicators with extensive experience and knowledge of Brazil into the consular sections in
Embassy Brasilia and Consulates General Rio de Janeiro and Sao Paulo. At the time of the
inspection, the initial groups of LNAs had completed their first appointment period; all but one
were recommended for continued employment.

         The Department hires LNAs specifically for NIV adjudication. They generally do not
rotate into other units inside or outside the consular section, as do career Foreign Service
officers, but they are eligible for temporary duty assignments to other posts to assist with NIV
adjudications. LNAs in Brazil have completed numerous temporary duty assignments at
embassies ranging from Bogota to Abuja to Beijing.

         Because the Department hired LNAs specifically for their fluency in Portuguese, they
were not tested in other languages. More than half the LNAs interviewed claim to have sufficient
ability to do visa work in Spanish or another language. The lack of documented language scores
means the Department does not have full knowledge of its employees’ capabilities. Experienced
LNAs qualified in Spanish or other languages could help smooth the expansion of the LNA
program.




                                        20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The Foreign Service Institute, in coordination with the Bureau of
Consular Affairs, should provide language testing for limited non-career appointees who wish to
have additional language test scores on record with the Department of State. (Action: FSI, in
coordination with CA)

        The Department plans to continue using the LNA program to meet an increasing need for
NIV adjudicating officers. The passage of comprehensive immigration reform legislation would
also likely require additional visa adjudicators. The Department cannot fill this need by
expanding the number of career Foreign Service officers—unlikely in the near term in any
case—as no career path exists for such a large number of consular officers. To facilitate LNA
hiring and to alert the Department to any potential difficulties, embassies need to report on the
activities of the LNAs in the field. Mission Brazil is drafting a comprehensive message to the
Department on the LNA program.

       Informal Recommendation 7: Embassy Brasilia should complete and send to the
       Department its report on the consular limited non-career appointee program in Brazil.

Global Support Strategy

        Global Support Strategy is a worldwide contract to provide NIV applicants with
information, appointments, biometric and fee collection, and document delivery. The contract’s
estimated total value over 10 years is $2.8 billion. Of this, an estimated $186 million will be
spent in Brazil during the first 6 years of the contract.

        Consular managers told the inspection team that they do not have access to contract
documents. They are therefore unable to determine whether the contractor is meeting the
required service standards and are uncertain about what perceived deficiencies to report to the
contracting officer’s representative. CA has yet to issue guidance to consular managers outlining
the service standards the contractor is responsible for maintaining. Nor has CA issued
instructions about how to monitor and improve the performance of the contractor or report
deficiencies to the contracting officer’s representative.

Recommendation 11: The Bureau of Consular Affairs, in coordination with the Bureau of
Administration, should issue guidance to consular managers defining the service standards for
Global Support Strategy contractors and explaining how to monitor and report deficiencies to the
contracting officer’s representative. (Action: CA, in coordination with A)

         Consular officers in all posts in Brazil conduct weekly visits to the contractor’s applicant
service centers where there are consulates and biweekly visits to those centers located in other
cities to observe operations and assess them, using variations of a checklist available on the CA
Web site. Some posts file completed checklists on a SharePoint site where they are available to
consular management and staff. Some posts use the completed checklist as an agenda for their
weekly discussions with applicant service center managers. Not all posts use the checklists to
identify performance issues for discussion with the contracting officer’s representative.




                                        21
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


       Informal Recommendation 8: Embassy Brasilia should require each of its consular
       section managers to analyze the reports of the weekly visits to Global Support Strategy
       contractor’s applicant service centers, identify recurring issues, and report them to the
       contracting officer’s representative.

        CA has provided closed-circuit television monitors for installation at the applicant service
centers so that consular managers can observe operations. The monitors require a dedicated
Internet network. Not all posts in Brazil have the necessary networks. Without the ability to
observe contractor operations, consular managers lack a means of verifying that the contractor is
conducting work correctly.

Recommendation 12: Embassy Brasilia should place closed-circuit television monitors into
service at all the contractor’s applicant service centers in Brazil. (Action: Embassy Brasilia)

Consular Leadership and Management

        The consular sections’ necessary focus on growth and improving NIV production has
come at the cost of some fundamentals of consular management. For example, FAST officers
and even some consular managers rarely log in to the Department’s classified computer system
to stay current with classified information. Many do not have active credentials to access the
system.

Recommendation 13: Embassy Brasilia should require all its consular officers to maintain
active credentials for access to the classified system. (Action: Embassy Brasilia)

        The Department in 2012 rapidly increased consular staffing in Brazil to deal with the
NIV processing backlog and future increased demand. Most of the new positions are FAST
officers rather than mid-level managers. The NIV deputy chiefs in Consulates General Rio de
Janeiro and Sao Paulo manage as many as 14 FAST officers, too many to effectively supervise,
counsel, and rate. CA analysis indicates that Consulate Recife and Embassy Brasilia are
overstaffed for current demand. Mission Brazil proposes reprogramming several positions to
create additional manager positions: two deputy chiefs in Consulate General Sao Paulo, one
deputy in Consulate General Rio de Janeiro, and a full time, mid-level American citizens
services position in Embassy Brasilia. The inspectors support the reprogramming of these
positions within Brazil.

        Some employee evaluation reports, including those for FAST officers, were not
completed in a timely manner. Supervisors did not devote enough time to evaluation duties,
including counseling FAST officers about the employee evaluation report process. Most consular
officers and LE staff told inspectors that they receive timely feedback and counseling from their
supervisors. However, not all supervisors document counseling sessions in the online
performance management system.

       Informal Recommendation 9: Embassy Brasilia should require all consular supervisors
       to comply with the requirement to document counseling sessions in the automated
       performance management system.

                                       22
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        The LE staff members in Consulate General Sao Paulo’s NIV unit serve on teams under
the leadership of an LE supervisor, who prepares their performance ratings for subsequent
review by an officer. Consular officers serve 4-6 month rotations as the reviewing officer for all
LE staff on the team. Because LE staff evaluations are due at the same time every year, an
officer who recently rotated into the leadership role may be required to prepare a reviewing
statement for a local employee without sufficient time to observe the employee’s performance.
Assigning officers to review designated LE staff members’ performance at the beginning of the
rating cycle, would improve the effectiveness of the evaluations.

       Informal Recommendation 10: Embassy Brasilia should assign each locally employed
       staff member on the nonimmigrant visa unit teams a performance reviewing officer at the
       beginning of the rating period.

       There is robust communication among and within Mission Brazil’s consular sections, but
the OIG team noted gaps in internal communication. For example, although most of the posts
have SharePoint sites, they save frequently used documents to shared folders that are not widely
accessible.

       Informal Recommendation 11: Embassy Brasilia should maintain and post consular
       policies, procedures, calendars, reports, metrics, and other documents on a SharePoint
       site accessible by consular officers and locally employed staff.

       Consulates General Sao Paulo and Rio de Janeiro do not hold regular meetings to discuss
adjudication standards, a practice that would help officers improve their ability to make and
document their decisions on visa cases.

       Informal Recommendation 12: Embassy Brasilia should require all consular sections to
       hold periodic meetings to review visa adjudications.

Consular Facilities

        To cope with the visa load while new consulates are being planned, OBO added six
windows in Embassy Brazil’s consular section, doubling the NIV interviewing capacity. All six
have a work surface approximately 29 inches high, the height of a wheelchair accessible
window, rather than OBO’s standard of 37 inches. These low windows create uncomfortable,
inefficient work spaces for officers conducting multiple interviews.

Recommendation 14: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Brasilia, should install interview windows that are the standard 37 inches high. (OBO,
in coordination with Embassy Brasilia)

        The American citizens services workspaces at Embassy Brasilia are scattered among
those of the NIV unit. The officer in charge of American citizens services does not have a
separate office. This situation does not allow adequate privacy for telephone calls and
discussions of sensitive cases involving American citizens or protect personally identifiable
information included in documents prepared in the unit, such as passports and consular reports of
birth abroad. The American citizens services unit needs to be segregated from the NIV
workspace.
                                       23
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 15: Embassy Brasilia, in coordination with the Bureau of Overseas Buildings
Operations, should construct a privacy wall to enclose the American citizens services unit.
(Action: Embassy Brasilia, in coordination with OBO)

Nonimmigrant Visas

        On at least one occasion, a consular manager, doing a routine check, discovered that an
officer had overlooked derogatory information in the lookout system and issued an NIV to an
ineligible applicant. Guidance in the, 9 Foreign Affairs Manual (FAM) Appendix G discusses
this kind of mistaken issuance and requires the post and the Department to take corrective
actions. When the manager discovered the error, the visa was still at the Global Support Strategy
contract facility. The section was able to recover the visa and cancel it. Post noted, however, that
the guidance in 9 FAM, Appendix G, 101.3 (c) says, in part: “In the event that you detect a visa
lookout accountability violation, you should take immediate steps to prevent the visa from
leaving the consular section and cancel it … (i)n the event that you have already sent the visaed
passport back to the applicant, you must take immediate steps to revoke the visa, and you must
report the apparent visa lookout accountability violation to (the Visa Office) for its review.” In
this case, while the passport had left the section, it was still in the custody of the contractor. The
Department instructed the embassy that the matter was a violation that it should report as
required in the regulation. The FAM provision is unclear on this point.

Recommendation 16: The Bureau of Consular Affairs should amend the provision in 9 Foreign
Affairs Manual, Appendix G, 101.3 (c) to clarify at what point a passport is considered to have
left the consular section. (Action: CA)

        Mission Brazil officers sometimes receive requests for assistance in expediting the return
of passports that are in process in the NIV unit. In some cases, officers have contacted the
consular section directly, even though they had not submitted a referral for those cases. The visa
referral system described in 9 FAM, Appendix K, Exhibit I, states that the visa referral
mechanism is the only appropriate method for mission staff to advocate on behalf of visa
applicants and that “references for applicants or communications seeking to influence consular
processes made outside of the referral process, whether to an applicant or a member of the
consular section, will be construed as an attempt to bypass the referral system and are in all cases
inappropriate.”

Recommendation 17: Embassy Brasilia should issue standard language that staff members can
use in responding to requests for expedited return of passports. (Action: Embassy Brasilia)




                                        24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Innovative Practice: Secondary Adjudication Windows


Innovative Practice: Secondary Adjudication Windows

Issue: NIV adjudicators frequently encountered cases at the interview window that required
additional scrutiny for possible grounds of ineligibility or referral to the fraud prevention unit.
Time was lost as adjudicators performed the necessary research or sought assistance from
colleagues.

Response: Mission Brazil examined its process and concluded that referring applicants with
complex cases immediately to a secondary window staffed by an experienced adjudicator could
help maintain service standards while ensuring that the cases receive the necessary extra
scrutiny.

Result: Applicants receive better customer service, while the secondary adjudicators gain
additional experience and deepen their knowledge of visa law and regulations.

Fraud Prevention Programs

        Mission fraud prevention units coordinate closely with one another. They conduct
training for the NIV units and provide training for local airport security personnel, often in
coordination with the assistant regional security officer-investigations (ARSO-I). The Foreign
Service national investigators in Embassy Brasilia and Consulate General Sao Paulo have
significant expertise but do not participate in the training to the extent they should.

       Informal Recommendation 13: Embassy Brasilia should require that fraud prevention
       units use locally employed staff to help train consular officers and staff and Brazilian
       airport personnel.

        Mission Brazil is conducting a waiver-of-interview pilot program under provisions set
out in 9 FAM 102. Part of this regulation sets forth conditions under which consular officers may
not waive the interview. One such condition requires interviews for applicants from "high fraud
areas," a term that is subject to interpretation. The four posts in Brazil do not agree on the
definition and are uncertain how to apply this provision. One option under discussion involves
giving individual officers latitude to interpret this provision. Such latitude could lead to
inconsistent standards for waiving the interview.

Recommendation 18: The Bureau of Consular Affairs should revise 9 FAM 41.102 N9.2 to
clarify the definition of high-fraud groups and areas. (Action: CA)

        A FAST officer on a 6-month rotation leads the fraud prevention unit in Embassy
Brasilia’s consular section. The incumbent is the sole fraud prevention manager at the embassy.
The same situation exists at Consulate Recife. Consulates General Sao Paulo and Rio de Janeiro
each have a full-time, mid-level fraud prevention manager. Fraud prevention is an important,
complex function that requires developing and maintaining contacts with local law enforcement
and other officials. Six months is insufficient to learn the responsibilities and develop the
expertise and contacts necessary to function effectively. Moreover, rotational fraud prevention
                                                  25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

managers on 6-month rotations do not always receive the fraud prevention training offered at the
Foreign Service Institute, making the learning curve even steeper.

       Informal Recommendation 14: Embassy Brasilia should assign fraud prevention officers
       in the Embassy Brasilia and Consulate Recife consular sections to 1-year rotations.

Assistant Regional Security Officer-Investigations

        CA and the Bureau of Diplomatic Security expanded the ARSO-I program in Brazil
along with the growth in consular staffing. The investigators work well with the consular
sections. A deputy ARSO-I will arrive in Brasilia in 2014 to oversee the four investigators
currently in Embassy Brasilia and Consulates General Sao Paulo and Rio de Janeiro. Each of the
programs adheres to the memorandum of understanding between the Bureau of Diplomatic
Security and CA. Brazil also has a missionwide standard operating procedure governing the
ARSO-I program.

       An ARSO-I has been assigned to Consulate Recife with a tour of duty beginning in May
2014. There is no space in the current consulate facility to accommodate this position, and the
move to the new facility is unlikely before 2015. The memorandum of understanding between
the Bureau of Diplomatic Security and CA recommends that an ARSO-I be provided with
physical office space. Facilities are not available for this officer to conduct fraud investigations
without risk of compromise.

Recommendation 19: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should delay the arrival in Recife of the assigned assistant regional security
officer-investigations until adequate office space is available. (Action: DS, in coordination with
DGHR)

American Citizens Services

         Brazil’s resident American citizen population of more than 200,000 is growing, and with
it the demand for services. Consulate General Sao Paulo has a full-time, mid-level unit chief,
with a part-time, mid-level unit chief in Consulate General Rio de Janeiro and an entry-level unit
chief in Embassy Brasilia. Mission Brazil proposes replacing the entry-level unit chiefs with
mid-level officers. The unit chiefs coordinate their work through regular conference calls. The
mission holds in-country conferences when possible. Exchanges of locally employed staff would
further harmonize American citizens services.

Political and Economic Reporting and Analysis

        Mission Brazil’s reporting officers cover a large and populous country that is undergoing
rapid change and is of great interest to Washington policymakers. Brazil’s many high-level U.S.
official visitors and some 30 formal, bilateral dialogues are successfully pushing ahead an
ambitious policy agenda. The substantive and logistical support they demand reduces officer
resources available for more traditional reporting on economic, political, and environment,
science, technology, and health (ESTH) developments. Sequester-related constraints in travel
budgets have reduced first-hand reportage of conditions outside of a handful of major cities.
Lack of representational funds makes contact development more difficult.
                                        26
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


        Mission Brazil nevertheless produces a steady stream of spot, economic and political, and
mandated reporting, which Washington end-users told inspectors are used in analysis produced
for the White House and other senior officials. Mandated reports are generally on time and
comprehensive.

        Economic and political reporting officers throughout the mission actively support the
front office’s “one team” approach to promotion of U.S. exports. Other U.S. Government
agencies within the mission praised their economic and political colleagues for contributing
personnel resources and astute economic and political advice to help U.S. companies gain market
share in Brazil.

Reporting Guidance and Coordination

        The political and economic counselors in Embassy Brasilia direct the reporting effort for
the entire mission, including reporting sections in the three constituent posts. An ESTH
counselor separately heads up a very small embassy section.

        Consulate reporting plans are linked to mission priorities. These plans, however, are only
loosely coordinated with the embassy. Constituent posts do not have sufficient input into the
national reporting plan to allow the particular competencies and perspectives to be reflected in
the planning. The consulates are uncertain of reporting priorities and their role in meeting them.

Recommendation 20: Embassy Brasilia should incorporate input from constituent posts in
preparing the national reporting plan. (Action: Embassy Brasilia)

Political Reporting

       Political cables are of fair quality. They tend to be narrowly-sourced and lack analysis.
Officers do not have robust networks of critical, outside contacts. Political cables rarely contain
comments or explanations about why the information is important. Officers at constituent posts
expressed the concern that Embassy Brasilia’s management of reporting prevents creative,
substantive reporting from the consulates. The resulting tension engenders resistance to embassy
guidance. This issue is discussed in more detail in the Executive Direction section of this report.

Economic Reporting and Trade Promotion

        Economic reporting is good, especially Embassy Brasilia’s analysis of the implications
for U.S. companies of new government policies and infrastructure projects. Consulate General
Sao Paulo produces sophisticated and well-sourced macroeconomic and financial reporting.
Economic officers work closely with the Treasury attaché in Brasilia, and the Foreign
Commercial Service and Foreign Agricultural Service representatives in the mission. The
embassy economic section chairs a monthly interagency meeting and teleconference with all four
posts, as well as Washington-based Department of Commerce and U.S. Trade Representative
officials, to coordinate export promotion activities. This unusually robust and inclusive
mechanism pays off with smoother relations with Washington policy agencies.
Environment, Science, Technology and Health

                                       27
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         At the time of the inspection, the embassy’s ESTH office consisted of a counselor, one
first-tour FAST officer, two LE staff members and one eligible family member hired for her
background in environmental issues. In addition to reporting on ESTH issues, the counselor
brought the very active petroleum and energy portfolios with her when she transferred from the
economic section. Temporarily moving petroleum and energy to ESTH was reasonable under
these circumstances, but in the medium-term it would make sense to move responsibility for that
important economic portfolio back to the larger economic section. Considering the importance
and potential breadth of the U.S.-Brazil ESTH and energy agendas, it appears that the ESTH
office’s personnel resources will provide inadequate substantive coverage and support of visitors
in the months ahead.

       Informal Recommendation 15: Embassy Brasilia should review the personnel structure
       of the office of environment, science, technology and health to determine how best to
       distribute portfolios and workload and recommend whether personnel increases are
       necessary.

Narcotics/Rule of Law

        The Bureau of International Narcotics and Law Enforcement plans to close its office in
Brasilia and release the staff in summer 2014, although the embassy had not received formal
notification at the time of the inspection. Should the office close, significant legislatively
mandated reporting and project monitoring responsibilities will remain, including the on-site
inspection of nearly 700 items of U.S. Government equipment throughout the country. This
responsibility will fall to the economic and/or political reporting sections, which are not
sufficiently staffed or funded to allow officers to fulfill these responsibilities.

Recommendation 21: The Bureau for Western Hemisphere Affairs, in coordination with the
Bureau of Narcotics and Law Enforcement Affairs and Embassy Brasilia, should provide
Embassy Brasilia with sufficient resources to fulfill its legislated responsibilities for oversight if
the Bureau of International Narcotics and Law Enforcement Brasilia office closes. (Action:
WHA, in coordination with INL and Embassy Brasilia)

Public Diplomacy

        With expanded bilateral relations, the public affairs environment has changed
dramatically since the last OIG inspection in 2007. Mission Brazil’s public affairs staff has
deployed an array of public diplomacy tools to take advantage of presidential initiatives to
expand educational exchanges and English instruction. Public diplomacy programs include input
from constituent posts and are listed among the key goals of the Integrated Country Strategy. The
public affairs information office has developed an innovative approach to social media, although
this could be improved by a more missionwide approach.

       The section is hampered by bureaucratic bottlenecks in the public affairs’ program
support unit and has a weak cultural diplomacy program.

       Mission Brazil’s public affairs section has had notable successes developing youth,
educational, and English teaching partnerships. In July 2011 the President of Brazil announced a
“Science Without Borders” program to send 101,000 Brazilians abroad by 2015 for higher
                                        28
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

education. The section, using the full array of public diplomacy tools, convinced the Government
of Brazil to send 5,300 students to the United States beginning in January 2012. Another 7,300
students are expected to complete the study program in 2013. One key to the success of Science
Without Borders was to increase English language instruction within Brazil. The public affairs
section in 2012 began coaching university-level faculties on the latest instructional methods. The
section also established a program, financed by Brazil, to send more than 1,000 high school
English instructors to the United States for training.

        Now that successful educational exchange programs are underway, it is time to take a
fresh look at how best to use other public diplomacy tools, such as sports diplomacy, social
media, speakers, and engagement with the private sector. The upcoming World Cup and
Olympics offer important public diplomacy opportunities. The mission’s superb LE cultural
specialists can facilitate mission engagement with senior intellectual and cultural leaders. The
mission should develop a strategy to achieve such engagement aimed at engaging the
ambassador and senior mission leadership with intellectual and opinion leaders in Brazil;
demonstrating to Brazilians their shared cultural heritage with Americans; increasing high
quality cultural programs; and through music, sports, and social media reaching out to
underprivileged youth who are rarely included in educational exchanges.

Recommendation 22: Embassy Brasilia should implement a cultural diplomacy strategy to
engage the mission with cultural elites and opinion leaders. (Action: Embassy Brasilia)

Section Management

       Mission Brazil’s public diplomacy staffing is inadequate given educational exchanges,
English language training, and the need to conduct a fuller range of public diplomacy programs.
Six vacant LE public affairs positions have not been filled due to the sequester.

        The public affairs section has not given sufficient attention to several important issues.
Shortcomings include outdated position descriptions, bottlenecks in the budget office, over-
centralization of social media resources, underfunding cultural diplomacy programs, overstaffing
the Information Resource Center, and inadequate training.

        Public affairs staff told inspectors that they are sometimes surprised to find that their
political/economic colleagues have been assigned to traditional public diplomacy topics such as
sports diplomacy, social media, and public diplomacy programs on law enforcement and
women’s issues. Mission leadership does not explain why these responsibilities shifted. Better
coordination between the political/economic and public affairs sections would allow both
sections to better accomplish mission goals.

       Informal Recommendation 16: Embassy Brasilia should better integrate public affairs
       and political/economics staffs by requiring that officers attend each other’s weekly staff
       meetings.

        The public affairs program support unit consists of two local employees responsible for
processing public affairs grants, travel authorizations, and procurements and for approving petty
cash transactions. Direct-hire and LE staff complain that this unit is a bottleneck for public
diplomacy financial transactions. Section staff members sometimes pay double and triple the
                                       29
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

initially quoted air ticket price, as the program support unit often delays purchase of tickets until
the day before the flight. Making broader use of blanket travel orders within a fixed geographical
area and on a quarterly basis would remove a level of approval from the travel authorization
process and provide the section better control over staff travel.

       Informal Recommendation 17: Embassy Brasilia should expand its use of blanket travel
       orders for public affairs staff.

       Informal Recommendation 18: Embassy Brasilia should reissue instructions and train
       public affairs staff on the missionwide air travel processing system.

        The program support unit is overwhelmed by the volume of work, as even the most
minute functions are centralized in Embassy Brasilia. For example, a program support specialist
at the embassy signs each portion of a grant payment rather than turning this function over to
grants officers representatives at constituent posts.

       Informal Recommendation 19: Embassy Brasilia should require grants officers
       representatives, rather than the program support specialist, to approve the second and
       third payments of a grant, once grants funds are certified as sufficient.

        The program support unit does not clearly communicate to constituent posts changes to
regulations that govern financial transactions. The program support specialist delays payments
and approvals when proper procedures are not followed. Rather than providing this information
by phone and email, it would be more effective for the specialist to conduct face-to-face
tutorials, either through visits to the constituent posts or by digital video conferences.

       Informal Recommendation 20: Embassy Brasilia should provide financial training and
       tutorials to staff at constituent posts through regular visits or via digital video
       conferences.

        The program support unit is converting paper grants files to electronic forms to be stored
on SharePoint. The end result will be a more transparent system, but it is a time-consuming and
inefficient process due to the considerable backlog of files. Currently, the program support
specialist and her assistant input data when they have time. Delegating this task to a clerical
worker would allow the program support unit to focus on more important matters.

       Informal Recommendation 21: Embassy Brasilia should delegate the conversion of the
       contents of hard-copy grants files to a clerical specialist.

        The public affairs officer arrived in Brasilia in summer 2011. He has since travelled in-
country more than 30 times, including 12 trips to Sao Paulo. His absence from Embassy Brasilia
necessitates extra administrative duties for immediate subordinates to manage the public affairs
section at a time when it is implementing major changes. Allowing mid-level and FAST public
affairs officers to travel more often would improve management and morale in Embassy Brasilia
and provide more developmental possibilities.

       Informal Recommendation 22: Embassy Brasilia should implement a travel plan in the
       public affairs section that affords travel opportunities to more junior officers.
                                        30
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Information Office

         The information office adequately monitors Brazilian media, producing a daily English
language news summary incorporating input from all constituent posts, mostly from newspapers,
but also from television and social media. Rio de Janeiro is the hub for television broadcasting in
Brazil, while Sao Paulo is the center for social media companies. The embassy works with
affiliates located in Brasilia to respond to inquiries and to schedule press activities rather than
through the consulates generals’ information sections. The embassy information office
coordinates only certain elements of the media function missionwide, and no longer meets with
consulate staff weekly by digital video conference.

        The country information officer’s work requirements state that he should coordinate the
media relations work of the three American information officers in the consulates general and
with the public affairs officer in Consulate Recife. The embassy does not always respond quickly
to constituent post inquiries about guidance on breaking news stories in their cities. The
embassy’s information officer is consumed by embassy duties such as scheduling media outreach
for the Ambassador and DCM, attending thematic working group meetings, and creating a plan
to rework the audio-visual staff in addition to producing the daily news summaries. Delegating
responsibility for specific sectors to the constituent information officers will be a more logical
division of labor and improve the delivery of the embassy’s unified message.

Recommendation 23: Embassy Brasilia should implement a plan to distribute more
responsibilities of the information office to constituent posts. (Action: Embassy Brasilia)

Social Media

        Embassy Brasilia’s information officer and social media assistant coordinate social media
missionwide. Recent public opinion polling in Brazil indicates that 61 percent of the Brazilian
public has a favorable view of the United States. 5 Polling also indicates that Facebook is the
dominant social media. 6

       Many large constituent posts at other missions have their own Facebook page. Social
media outlets are concentrated in Sao Paulo, with 70 percent of the embassy’s Facebook
followers living there. Centralizing social media by channeling content through the embassy
allows for a unified mission message but loses the opportunity to connect with a wider audience
more interested in local news at each of the consulates general.

        At nearly 100,000 followers, the embassy Facebook is relatively popular. By giving each
constituent post its own Facebook page, these numbers would increase. Sao Paulo has a distinct
personality and post activities are underreported due to Brasilia’s limit (as suggested by the
Bureau of International Information Programs) of only 2-3 missionwide Facebook posts per day.
Consulates General Rio de Janeiro and Sao Paulo information staff currently lack the technical
capabilities to manage effectively their own Facebook pages. Looking ahead to a time when

5
    U.S. Department of State Office of Opinion Research: Public Opinion in Perspective: Brazil, May 2013.
6
    U.S. Department of State Office of Opinion Research: Brazilians Are Avid Social Media Users, July 2012.

                                             31
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

public affairs can hire the necessary staff, Embassy Brasilia could help the constituent posts to
establish their own Facebook pages.

Recommendation 24: Embassy Brasilia, in coordination with the Bureaus of Western
Hemisphere Affairs and International Information Programs, should implement a plan to
establish Facebook pages for Consulates General Rio de Janeiro and Sao Paulo. (Action:
Embassy Brasilia, in coordination with WHA and IIP)

        Embassy Brasilia runs a “new media group” that brainstorms ideas under the information
officer’s supervision and the daily oversight of the social media assistant. Together, the group
makes judgments about the best platforms to maximize the appeal of particular mission
messages, measure the results, and experiment with the latest social media tools. Although the
group is open to wider participation, only the public affairs staff participates.

       Informal Recommendation 23: Embassy Brasilia should recruit new participants for the
       new media group, especially among first- and second-tour officers and specialists.

Information Resource Center

        The Information Resource Center is a small library and information center that services
1,500 online contacts and hosts a small number of walk-in visitors. It is supervised by the
information resources officer with 6 local employees. It is located in Casa Thomas Jefferson, a
binational center in Brasilia that is one of 38 such institutions in the country. The binational
centers’ primary task is teaching English (16,000 students at Casa Thomas Jefferson). About half
of the binational centers receive grants from the Bureau of International Information Programs
under the American Spaces designation.

        In a new development, Casa Thomas Jefferson has asked the Information Resource
Center to pay about $13,500 per month rent for the space. This amount is in addition to the
center’s annual budget of $450,000 for maintenance, security guards, staff salaries and
distribution of hard-copy magazines to other binational centers in Brazil.

        The Information Resource Center is overstaffed. Attendance varies greatly from month to
month, averaging about 10-12 people per day. One employee commented that 90 percent of the
visitors are school-age children from Casa Thomas Jefferson who come to play video games.
Resources can be better spent on other public affairs needs.

Recommendation 25: Embassy Brasilia, in coordination with the Bureau of International
Information Programs, should close the Information Resource Center at Casa Thomas Jefferson.
(Action: Embassy Brasilia, in coordination with IIP)

Regional English Language Office

        The regional English language office consists of one direct-hire specialist and one
assistant to cover the entire country. The regional English language officer travels about 40
percent of the time and is responsible for six English language fellows. These specialists, three of
whom are funded by the Brazilian state of Pernambuco, are American English teachers who train
Brazilian teachers in the latest methodologies.
                                       32
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


       The Brazilian Ministry of Education and private-sector organizations frequently ask
Embassy Brasilia for assistance with English language instruction. The regional English
language office is not adequately staffed to provide more than the basic assistance. Adding a
second assistant would allow the embassy to accommodate more of these requests and expand its
English language instruction for underprivileged students.

Recommendation 26: Embassy Brasilia, in coordination with the Bureau of Educational and
Cultural Affairs, should hire a second locally employed regional English language office
assistant. (Action: Embassy Brasilia, in coordination with ECA)

        The regional English language officer is a one-country position. The incumbent is fluent
in Portuguese, but the position is not language designated. Because of the limited English spoken
in Brazil, the regional English language officer needs proficiency in Portuguese.

Recommendation 27: The Director General for Human Resources, in coordination with
Embassy Brasilia and the Bureau of Educational and Cultural Affairs, should add language
designation to position number 61111229. (Action: DGHR, in coordination with Embassy
Brasilia and ECA)




                                       33
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


Resource Management
                                      U.S      U.S                     Total
                                     Direct   Local    LE     Total   Funding
               Agency                Hires    Hires   Staff   Staff   FY2012
Department of State
   Diplomatic & Consular Program         89       4      33     126   $16,685,937
   ICASS                                 23      23     463     509   $31,485,800
   Public Diplomacy                      17       3      54      74    $7,761,076
   Diplomatic Security                   15       7      36      58    $5,672,466
   Security Engineering Office
Technical Officer Exchange                3       0       1       4      $342,890
   H/L Visa Fraud                         3       0       0       3      $226,286
   Marine Security                       18       0       0      18      $926,512
   Representation                         0       0       0       0      $112,802
   OBO                                    2       0       5       7   $16,660,477
   Narcotics and Law Enforcement          2       0       5       7    $2,602,060
   Consular Affairs                     131      33     173     337   $13,807,871
Department of Agriculture
   Foreign Agriculture Service            4       0       8      12     $457,675
   Agency Trade Office                    1       0       0       1     $513,314
   Animal and Plant Health
   Inspection Service                     2       0       2       4    $2,500,000
Department of Defense
   Defense Attaché Office                22       0       5      27    $1,636,755
   Office of Defense Cooperation          0       0       0       0      $235,000
   Military Liaison Office               33       0       7      40      $610,000
Department of Justice
   Drug Enforcement Administration       29       0       7      36    $2,091,485
   Legal Attaché’s Office                 3       0       1       4      $445,520
Department of Homeland Security
   Transportation Security
   Administration                         1       0       1       2     $112,005
   Container Security Initiative          4       0       5       9     $425,000
   Customs and Border Protection          2       0       1       3     $219,955
   Immigration and Customs
   Enforcement                            5       0       0       5     $806,000
   Secret Service                         2       0       2       4     $680,000
Foreign Commercial Service
   Patent and Trade Office                1       0       2       3      $456,959
   International Trade Office            11       0      51      62    $5,644,842
USAID
   Missions Operating Expenses            3       0      18      21    $1,478,442
Department of Health and Human
Services
   Centers for Disease Control and        0       0       4       4     $549,200
                                    34
                       SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

   Prevention
   Food and Drug Administration                1         0        1         2          $4,500
   Office of Global Affairs                    1         0        1         2         $85,900
Department of Transportation
   Federal Aviation Administration             1         0        1         2       $263,360
U.S. Congress
   Library of Congress                         1         0       14       15      $1,415,371
Department of Treasury
   Office of International Affairs             1         0        2         3       $200,327
Department of the Army
   Force Protection Detachment                 4         1        3        8        $656,003
   Technical Analysis Team                     3         0        0        3         $10,000
   Office of Security Cooperation              1         0        2        3        $198,000
Totals                                       439        71      908    1,418    $117,979,790
Source: Embassy Brasilia.

Mission Management Overview

        Management sections have coped well with rapid growth throughout the mission. Their
efforts provided the foundation for consular success. With growth slowing somewhat, it is time
to review administrative processes across the mission to improve customer service and the best
use of resources. Accounts receivable, vouchering, and housing assignment and make-ready
processes need review and improvement.

        Embassy Brasilia in 2012 acquired a new deputy management counselor position, which
also functions as the embassy management officer. Work requirements for the management
counselor and deputy are almost identical because of the focus on mission growth and the need
for a backup management counselor. The result is confusion among subordinates, lack of
accountability for results, and duplication of effort. One solution would be to make the deputy
responsible for management of Embassy Brasilia, and the counselor responsible for mission
coordination and oversight.

       Informal Recommendation 24: Embassy Brasilia should eliminate duplication in the
       work requirements statements of the management counselor and the deputy management
       counselor.

General Services Operations

         General services units across the mission have successfully managed the major
challenges of supporting mission growth. However, newly hired employees have yet to be
trained in either technical or customer service skills. Staff vacancies left unfilled due to
sequestration and WHA hiring restrictions have led the mission to outsource some support
services. OIG questionnaire and survey results indicate a high satisfaction with most services.




                                         35
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Contracts

        Contracts over the $3,000 micropurchase threshold comply with Federal Acquisition
Regulation clause 52.222-50 pertaining to trafficking in persons.
        Several designated contracting officer's representatives have yet to take required training
and do not provide adequate contractor oversight. Contracting officers are not informed by the
representatives, in writing, of performance deficiencies or schedule changes and delays.
According to 14 Foreign Affairs Handbook (FAH)-2 H-142, alerting the contracting officer of
any issues in the contractor’s performance is the contracting officer’s representative’s
responsibility. Department policy states that only employees with adequate training should be
appointed as contracting officer’s representatives.

Recommendation 28: Embassy Brasilia should require initial and refresher training for
designated contracting officer’s representatives. (Action: Embassy Brasilia)

Procurement

        The mission’s latest ICASS customer satisfaction survey rated the procurement units’
performance below worldwide averages. Two factors, both products of rapid mission growth,
explain the relatively low scores. First, four of the six procurement agents are new and have not
received required training. Second, the procurement staff does not follow up on the status of
customer purchases.

        The management section has addressed the first factor by requiring the new employees to
enroll in the Foreign Service Institute online acquisition courses. It addressed the second by
providing information sessions on the procurement process to customers and staff, and it has
instituted procedures to provide timely and consistent feedback to their clients.

Property Management

        The general services office manages nonexpendable and expendable supply programs
well, and ICASS customer satisfaction levels exceed worldwide averages. Embassy Brasilia’s
small onsite warehouse is well organized, and outfitted with appropriate racking and mechanical
handling equipment. Consulate General Rio de Janeiro’s warehouse has sufficient and organized
storage space. Internal controls are adequate.

Consolidated Warehouse

       In a missionwide consolidation, Embassy Brasilia and Consulate General Rio de Janeiro
and Consulate Recife moved the bulk of their warehouse operations to Consulate General Sao
Paulo’s government-owned compound, which includes substantial warehouse space. The
embassy and Consulate General Rio de Janeiro retain small amounts of furniture, appliances, and
expendable supplies on site. This consolidation saves approximately $200,000 annually in rent of
the former off-site facility in Brasilia.




                                       36
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Housing

        The interagency housing board process works well. In Embassy Brasilia, the housing
board has corrected deficiencies in the housing assignment process that led to complaints of
inequitable housing in the past.

        General services and facility management operations were unprepared for the mission’s
rapid growth. Embassy Brasilia’s housing and facility management units were understaffed.
They consequently outsourced some of the make-ready process, but failed to adequately oversee
the contractor’s work. The newly arrived supervisory general services officer and the interagency
housing board are working to improve the housing assignment process in Embassy Brasilia.

        Make-ready of housing is improving, but some residences were dirty and in need of
repair when new employees arrived. According to ICASS uniform service standards, customers
should move into housing that is clean, safe, and in good repair. Besides a negative impact on
morale, poor make-ready work exposes residents to risk of injury. The new position of housing
coordinator in Consulate General Rio de Janeiro has been key to its success in improving the
housing make-ready process there.

Recommendation 29: Embassy Brasilia should require that mission housing is clean, safe, and
in good repair upon occupancy. (Action: Embassy Brasilia)

       Informal Recommendation 25: Embassy Brasilia should establish housing coordinator
       positions at the embassy and at Consulate General Sao Paulo.

Government-Owned Properties in Brasilia

         Embassy Brasilia maintains 20 government-owned residential properties, the majority
purchased in the 1960s. A few have been refurbished but many need complete renovations. All
are currently in use. The interagency housing board requested that the general services office and
facility maintenance unit develop a rotating plan to take one house at a time out of service for
renovation. The embassy has yet to put this plan into effect due to lack of funding.

        The Department continues to operate under a mandate from the Congress and the
Government Accountability Office to dispose of excess and unneeded properties as well as
oversized housing. Properties that are vacant without approved plans for renovation or reuse are
not being put to optimal use.

       Informal Recommendation 26: Embassy Brasilia should assess all U.S. Government-
       owned properties and develop a strategy to renovate them.

Motor Pool

       The mission as a whole is careful of driver hours, but due to understaffing at Consulate
General Sao Paulo, motor pool drivers are required to work a single shift in excess of 10 hours in
one day. In a sample pay period, drivers at the consulate general worked 87 hours of overtime,
most in excess of the 10-hour-per-day limit stipulated by the Department’s Motor Vehicle Safety

                                       37
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Management Policy. Not observing the Department’s safety policy for driver shifts results in a
higher risk of vehicle accidents.

Recommendation 30: Embassy Brasilia should limit the number of hours worked by motor
pool drivers to no more than 10 hours per day. (Action: Embassy Brasilia)

       Vehicle dispatch and other motor pool communications are conducted by cell phone.
Using radios enables drivers to simultaneously hear the dispatcher and one another. Radios are
important to efficient motor pool operations, cut down on distracted driving by overuse of cell
phones, and are a critical tool if the cell phone network goes down.

         Informal Recommendation 27: Embassy Brasilia should equip dispatchers and motor
         pool vehicles with radios.

       Consulate Recife’s motor pool driver medical certifications are outdated. The consulate is
working with Embassy Brasilia to have a medical practitioner visit post to conduct the required
physical exams. Per 14 FAM 432.4 c. (4) (a), motor pool and incidental drivers must be
medically certified every 2 years. Not adhering to the regulation puts drivers and passengers at
risk.

         Informal Recommendation 28: Embassy Brasilia should comply with the Department of
         State requirement for drivers to be medically certified every 2 years.

Self-Drive Policy

        Consulate Recife’s principal officer self-drives U.S. Government vehicles on personal
errands. Mission Brazil’s motor vehicle policy states that any transportation by the Ambassador
or principal officer is automatically defined as for “business purposes.” However, the
Department definition of “business purposes” is limited to employees such as chauffeurs whose
work requirements include driving. Per 14 FAM 433.1, “chiefs of mission and principal officers
are strongly discouraged from self-driving.” Unauthorized self-driving of official vehicles puts
the driver at risk of personal liability for property damage, personal injury, or death claims
resulting from accidents.

Recommendation 31: Embassy Brasilia should bring its motor vehicle policy into compliance
with the Department of State’s guidance on conducting personal business in a U.S. Government
vehicle. (Action: Embassy Brasilia)

Travel

        Travel services are centralized in Consulate General Sao Paulo because international
airline and hotel companies are headquartered in that city. The travel manager does a good job of
leveraging the mission’s high travel volume to negotiate favorable air fares and hotel rates.

        By piloting the E2 Travel Services online booking tool, Mission Brazil is poised to
realize even more substantial cost savings. Relatively few travelers use the tool. Per 14 FAM
513, travelers are expected to make a conscientious effort to minimize travel costs. The cost of a
ticket booked online is $6.49 versus the $31.49 charged by the Department’s travel agent,
                                       38
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Carlson Wagonlit. If 80 percent of Mission Brazil’s travelers booked online for eligible trips, the
mission would save approximately $85,000 per year.

Recommendation 32: Embassy Brasilia should require the use of the online booking tool for
official travel. (Action: Embassy Brasilia)

        Brazil is the third most visited mission in Latin America by U.S. officials, hosting 2,867
visitors in FY 2012. The resulting workload diminishes the time officers have to focus on their
core duties. Consulate General Rio de Janeiro recently established a visitors unit to handle
logistics. Employees report that the unit is functioning well and has reduced the time they spend
on logistics, freeing them to focus more on their core functions. Good management entails
appropriately matching resources to mission needs and maximizing resources to effectively
accomplish the organization's mission. By allowing staff to be pulled away from core duties on a
regular basis, Embassy Brasilia and Consulate General Sao Paulo risk undermining priority
work.

       Informal Recommendation 29: Embassy Brasilia should complete a cost-benefit
       analysis of establishing visitors units in Embassy Brasilia and Consulate General Sao
       Paulo and share the results with the ICASS council.

Facility Management

       Support from Embassy Brasilia’s facility office to the constituent posts has been good.
The embassy controls all routine maintenance funding, but has responded fully to emergencies,
such as the recent flooding in Consulate General Sao Paulo. All other funding comes directly
from OBO and has been adequate. The facility managers communicate regularly by digital video
conference.

        ICASS survey results for Embassy Brasilia and Consulates Rio de Janeiro and Recife are
lower than average but higher for Consulate General Sao Paulo. Employees in Embassy Brasilia
complain of the absence of feedback on appointments, workmen not showing up or showing up
unexpectedly, and unexplained delays in making repairs. The section has only one work order
clerk, despite the tremendous growth in staff and residences.

       Informal Recommendation 30: Embassy Brasilia should assign a second clerk in the
       embassy facilities section.

       Many LE maintenance employees in Embassy Brasilia and the constituent posts have a
poor working knowledge of English. Residents report having difficulty communicating with the
maintenance employees when they arrive to make repairs. Currently, only Embassy Brasilia and
Consulate Recife offer English language courses to LE staff.

       Informal Recommendation 31: Embassy Brasilia should make English language courses
       available to LE maintenance staff missionwide.




                                       39
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Human Resources

       Embassy Brasilia has missionwide responsibility for human resources issues. Relations
between the embassy and consulates on the whole are good, but there are occasional differences,
and standard procedures are sometimes unclear or lacking. The embassy approves all personnel
decisions, including staff terminations, and sometimes overrules the consulates. There are no
agreed-upon guidelines regarding employee discipline nor has the embassy issued standard
operating procedures to be followed when terminating an employee. In one case, lack of
communication resulted in the embassy reinstating an employee Consulate General Sao Paulo
had terminated, creating ill-feeling and lingering mistrust between the officers involved.

Recommendation 33: Embassy Brasilia should implement standard operating procedures for
locally employed staff discipline, including terminations. (Action: Embassy Brasilia)

         Embassy Brasilia’s human resources section received slightly below average scores on
the 2013 ICASS customer satisfaction survey as well as the overall OIG workplace and quality
of life questionnaire scores. The scores for the constituent posts were also lower. Respondents
complained that the embassy human resource section’s customer service is poor and the support
it provides to the consulates has been uneven.

        There are widespread complaints about the embassy human resources office. The OIG
team heard of queries not being acknowledged or going unanswered. Employees at Consulates
General Sao Paulo and Rio de Janeiro complained about receiving incorrect information. One
employee at Consulate General Sao Paulo waited for 1 year for the embassy to upgrade the
position, even after it was approved by the consulate general’s classifier. During that time and
despite repeated efforts, the embassy human resources office did not respond. ICASS service
standards mandate timely responses to customer inquiries. Providing untimely, poor-quality
services diminishes mission performance.

       Informal Recommendation 32: Embassy Brasilia should implement service standards
       for the human resources office.

       Mission Brazil lacks a training plan for LE staff and is only beginning to compile training
data. No system is in place to prioritize training needs. Many employees hired during the growth
surge have not had the fundamental initial training to prepare them for their work. The result is
diminished productivity.

Recommendation 34: Embassy Brasilia should solicit training needs from across the mission,
and implement a comprehensive training plan. (Action: Embassy Brasilia)

         Most embassy LE staff position descriptions are up to date, but those at Consulates
General Sao Paulo and Rio de Janeiro are not. More than half of the public affairs position
descriptions missionwide were inaccurate or out of date. With the recent growth in staffing, local
employees at the consulates have been assigned additional responsibilities that are not reflected
in their position descriptions and position classifications. The position classification for the
embassy’s LE telecommunications field engineer states that he supervises more employees than
is actually the case, possibly leading to an inflated grade. Outdated position descriptions are a

                                       40
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

general shortcoming that will require the action of the employee, supervisor, and the human
resources officer to resolve per 3 FAH-2 H-441.4.

Recommendation 35: Embassy Brasilia should review all locally employed staff position
descriptions and update those that are not current and reclassify those positions as needed.
(Action: Embassy Brasilia)

Eligible Family Member Employment

        Embassy Brasilia has an effective eligible family member employment program. Of 95
eligible family members, 24 are employed in the embassy and 19 on the local economy. The
embassy’s hiring process is fair and transparent. The embassy organizes regular workshops to
keep prospective job seekers informed of positions available both inside and outside the
embassy. The consulates have smaller programs, with fewer eligible family member positions. In
Sao Paulo, where many American companies are located, Portuguese language requirements
limit outside employment.

Official Residence Expense Staff

         Because staff payment books constitute official contracts under Brazilian law, Mission
Brazil does not produce employment agreements for household staff of the Ambassador, DCM,
and the principal officers at the constituent posts. There is no management policy that provides
guidance regarding official residence expense staff. When inspectors asked household staff for
their contracts, they produced their payment books but had no information on such items as
health insurance or social security. As evidenced by sample management policies and
employment agreements on the Department Web site, the Department encourages posts to
develop official representation expense staff employment agreements. By not documenting
responsibilities of the employee and the employer, ambassadors, DCMs, and principal officers
are at risk of noncompliance with local and U.S. labor law and regulations.

       Informal Recommendation 33: Embassy Brasilia should implement a missionwide
       policy on official residence expense staff, including employment agreements.

Post Language Program

       The mission has an active post language program. Staff complained about the lack of
organization in the embassy’s program, especially about the many unannounced absences and
unplanned or extended leave taken by instructors. To improve the post language program and
increase accountability, the embassy’s human resources office is implementing attendance and
scheduling changes.

Equal Employment Opportunity

       Mission Brazil has a large and effective program, with seven American counselors and
seven LE staff liaisons. There are no pending cases.

       The embassy provides program information via management notices and bulletin board
displays throughout the mission. An Equal Employment Opportunity page on Mission Brazil’s
                                       41
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

SharePoint site lists the embassy’s Equal Employment Opportunity policies and provides links to
Department resources.

Financial Management

        Budget planning and accounting are centralized at Embassy Brasilia. Travel vouchers are
outsourced to the Department’s Post Support Unit. Each post receives invoices and prepares
payment vouchers, and then sends them to the embassy for funding. Inspectors observed
satisfactory unannounced cash counts of Class B cashiers in Embassy Brasilia and Consulate
General Sao Paulo. Inspectors were unable to observe cash counts in Consulate General Rio de
Janeiro due to the cashier’s absence in the lead-up to the vice president’s visit to Brazil and in
Consulate Recife due to flooding.

Late Invoice Payments

       Due to Brazil’s history of hyperinflation, the deadline for local invoice payments is
sometimes only a few days. Brazilian law does not mandate a specific invoice payment deadline.
Each vendor has its own invoice payment policy, and late payment penalties are often negotiable.
LE staff members claim that Brazilian businesses negotiate better terms of payment than does the
mission. By not negotiating late payment deadlines, the U.S. Government loses money.

       Informal Recommendation 34: Embassy Brasilia should negotiate favorable payment
       terms with all vendors.

         Although Mission Brazil has improved its payment process for bills such as utilities and
condominium fees, it is slow to pay other vendor invoices due to haphazard receipt of invoices
and slow voucher examination. The embassy and each consulate have devised their own methods
of tracking the last two payment process steps of certifying payment and ordering the check, but
do not track the critical first steps from the receipt of invoice to the end of the voucher
examiners’ work. The tracking methods are incompatible with each other and with the
Department’s Ariba procurement tracking system. Because no one monitors the entire payment
process, only vendor complaints alert managers to languishing invoices. Per 4 FAH-3 H-422.3,
the billing office shall identify and solicit late invoices. Lack of an efficient monitoring system
results in the embassy paying penalties, friction with vendors, and lack of accountability for late
payments.

Recommendation 36: Embassy Brasilia should use the approved Ariba system to monitor the
payment process from invoice receipt to final payment. (Action: Embassy Brasilia)

Recommendation 37: Embassy Brasilia should develop performance standards for each step of
the invoice payment process and hold employees accountable for their performance. (Action:
Embassy Brasilia)

       Informal Recommendation 35: Embassy Brasilia should complete an analysis of late
       fees missionwide for FY 2013 and share the results with the Interagency Cooperative
       Administrative Support Services council.


                                       42
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

International Cooperative Administrative Support Services

        The ICASS process works well. It is managed by Embassy Brasilia with full participation
in the budget committee and the ICASS council by appropriate personnel across the mission.
However, Embassy Brasilia’s financial management office provides funding to ICASS service
providers without sharing the comprehensive budget. Budget decisions should be negotiated by
all concerned service providers to maximize mission resources and encourage advance planning.

       Informal Recommendation 36: Embassy Brasilia should coordinate budget planning by
       providing funding information to all International Cooperative Administrative Support
       Services providers and establishing consensus on spending priorities.

Outsourcing Vouchers

        Embassy Brasilia currently outsources travel vouchers, but not payment vouchers. The
average cost to process a voucher in-house is $37.61 per strip code. Regional financial support
units charge $12 per strip code to process vouchers. The Global Financial Services office in
Charleston states that outsourcing voucher processing is optional and should be determined
locally. Not choosing the appropriate voucher processing method is costly to the U.S.
Government.

Recommendation 38: Embassy Brasilia should determine whether outsourcing payment
voucher processing would result in cost savings, and share the study with the Interagency
Cooperative Administrative Support Services council.(Action: Embassy Brasilia)

Information Management

        Information management operations are well managed. Staffing is adequate, and the
section has done a good job of scaling to accommodate new support requirements following the
growth in consular staff. The information management officer, who had the benefit of prior
experience in other information management capacities in Brazil, has provided solid leadership.
The section has developed innovative local applications and has pursued centralization or
consolidation to increase efficiency. There is room for improvement in overall communication
and coordination between the embassy information management section and those of the
consulates. The absence of travel funding has hampered efforts to support the consulates, even
for mission-critical equipment. Information security functions are performed adequately.

        The embassy is seeking to establish a regional information systems security officer
position, which the OIG team supports. Inspectors found areas for improvement, many of which
management was already aware of or taking action to mitigate.

Mail Operations

        The mail room at Consulate General Sao Paulo has a history of weak management and
inefficient operations. The current mail room supervisor has made great strides in redressing
those issues and instituting efficient work processes. The current American information
management staff also has made significant progress resolving longstanding personnel issues.

                                       43
                          SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

            The OIG team found a number of instances of unauthorized use and abuse of the mail
    program at Consulate General Sao Paulo, which lacks internal controls. The embassy issued a
    management notice in 2010 specifying authorized usage. Due to employee turnover in the past 3
    years, this notice should be reissued. Only authorized personnel who meet the criteria identified
    in 14 FAM 724.2 may use the diplomatic post office. An updated diplomatic mail policy would
    inform consulate staff of approved usage and regulations and reduce the likelihood of abuse.

    Recommendation 39: Embassy Brasilia should update and redistribute a missionwide mail
    policy that establishes internal controls for authorized usage of the diplomatic mail program.
    (Action: Embassy Brasilia)
[Redacted] (b) (5), [Redacted] (b) (7)(F)




    Recommendation 40: [Redacted] (b) (5), [Redacted] (b) (7)(F)




             New visa applicant pre-processing procedures involve applicants visiting external
    facilities operated under the Global Support Strategy contract. Applicants who qualify for a
    waiver of interview submit their passport, a printout of their online application, and a receipt for
    online payment of their visa fee. [Redacted] (b) (5), [Redacted] (b) (7)(F)




    Recommendation 41: [Redacted] (b) (5), [Redacted] (b) (7)(F)




    Diplomatic Post Office

            Mission Brazil’s diplomatic post office was converted from a military post office and so
    is permitted to operate without host-nation approval requirements under 14 FAM 761.1. This
    framework offers little clarity to the mission on rights and responsibilities. Conflicting policies
    have not helped the issue. In accordance with 14 FAH-4 H-113, all posts are listed as Category C
    and must use the diplomatic post office for personal mail. Embassy Brasilia has issued a
    management notice instructing mission personnel to use the unclassified pouch for personal
    items. Consulate General Sao Paulo has reiterated that instruction to its community as well,
    citing instances of items being damaged in the diplomatic post office.
                                               44
                                  SENSITIVE BUT UNCLASSIFIED
                                         SENSITIVE BUT UNCLASSIFIED

         Recommendation 42: Embassy Brasilia, in coordination with the Bureau of Administration,
         should clarify the mission policy for personal use of the diplomatic post office and unclassified
         pouch to bring it into line with Department of State regulations. (Action: Embassy Brasilia, in
         coordination with A)

                 The hub for the diplomatic post office was recently moved to Consulate General Rio de
         Janeiro from Embassy Brasilia. The consulate general’s diplomatic post office is too small to
         handle the volume of mail if all mission personnel were to use it rather than the diplomatic pouch
         for personal mail. Remodeling the mail room to eliminate the anteroom would provide additional
         space.
                 Informal Recommendation 37: Embassy Brasilia should direct Consulate General Rio
                 de Janeiro to modify the mail room layout to better accommodate pouch bags and mail
                 sorting.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




         Recommendation 43: [Redacted] (b) (5), [Redacted] (b) (7)(F)


 [Redacted] (b) (5), [Redacted] (b) (7)(F)




                    Informal Recommendation 38: [Redacted] (b) (5), [Redacted] (b) (7)(F)




         7
             Inspection of Embassy Brasilia and Constituent Posts, Brazil, Report No. ISP-I-08-15A, March 2008.

                                                      45
                                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Telephone Operations

         Telephone operations missionwide have been generally well managed and include
innovations that have helped to promote mission cohesion. Mission staff widely praised a recent
initiative to reprogram the telephone private branch exchanges to allow for four-digit extension
dialing missionwide. There have been some challenges, including with the threat recorders,
which are detailed in the security annex. The next initiative planned is to consolidate
switchboard operations at a single site.

Cellular Phone Contract

        Embassy Brasilia negotiated a missionwide contract for cellular phone service through
the company Telecom Italia Mobile. Only Consulate General Rio de Janeiro opted out. The
contract was to include centralized billing and local sales company representatives, but this has
not happened. While a central contract is often a best practice, here it became a worst-case
scenario as the selected carrier has provided unreliable service, which poses a communication
vulnerability in the event of an emergency. Consulate General Sao Paulo would like to switch to
another company with a better performance record. Telecom Italia Mobile currently has a
termination fee in excess of $30,000. Embassy Brasilia plans to wait until later in 2013—the end
of the second option year—to make any switch to avoid those costs. Coordination between the
embassy and the consulates will be necessary in making a sound decision.

Embassy Brasilia

      The information systems center at Embassy Brasilia is well run and has met increased
workload ably over the last 3 years.

        The information systems center currently has one programmer to develop and maintain
local applications. The senior programmer currently supports approximately 36 applications,
including SharePoint sites, databases, and Web site interfaces. Applications such as the
automated customs and shipping system have garnered wide praise from embassy customers.
Despite this, few of the applications have been disseminated to or implemented by the
constituent posts. The applications themselves are generally developed using a prototyping
methodology and are documented informally in SharePoint. One followed a more rigorous
waterfall approach with strict control gates. The documentation shared with inspectors indicated
that none of the applications had been recorded in ITAB/iMatrix, the Department’s repository for
reporting systems information in accordance with the Federal Information Security Management
Act.

       Informal Recommendation 39: Embassy Brasilia should require the consulates to make
       use of Embassy Brasilia’s locally developed software applications.

       Informal Recommendation 40: Embassy Brasilia should update the Department’s
       Information Technology Asset Baseline/iMatrix system with records for each of the
       locally developed applications.

      Embassy Brasilia does not have off-site storage of OpenNet backups. Because of the
volume of data generated by the embassy, it has tried a variety of methods to create full backups,
                                       46
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

including tapes and removable hard drives. The latest effort involves a secondary Jetstor storage
area network array housed in a cage in the embassy warehouse. This unit is connected by fiber-
optic cabling to the main server room and creates a backup from the main Jetstor unit that takes
incremental snapshots of Embassy Brasilia’s OpenNet network. The warehouse cage is not a
good solution for information systems center storage as it does not have adequate climate or
access controls. The presence of the second backup unit, which maintains a full online backup of
the embassy’s network, means the space is subject to the same physical security requirements as
a computer room as required by 12 FAM 629.4.

Recommendation 44: Embassy Brasilia, in coordination with the Bureaus of Western
Hemisphere affairs and Information Resource Management, should implement alternative means
for secure off-site storage of network backups. (Action: Embassy Brasilia, in coordination with
WHA and IRM)

Consulate Recife

        Consulate Recife has two systems administrators who have done an excellent job
maintaining systems operations despite a doubling of their user base. One administrator also
performs mail duties, due to a vacancy. The management officer who supervises the systems
staff does not have the necessary background to understand network operations or rate the
administrators’ performance. Designating Embassy Brasilia’s information systems officer as the
reviewer of the LE systems staff would provide better technical oversight over the management
officer’s assessment and keep the embassy better informed of consulate information management
issues.

       Informal Recommendation 41: Embassy Brasilia should designate the information
       management officer in Brasilia as the reviewing officer for the systems staff at Consulate
       Recife.

        Consulate Recife has two dedicated Internet networks that do not comply with
Department regulations under 5 FAM 872.2, which require embassies to register all dedicated
Internet network connections. The consulate must justify dedicated Internet networks by
demonstrating a clear need that cannot be met by the unclassified network. If not appropriately
managed and justified, dedicated Internet networks divert information management resources
from the Department’s OpenNet network. Lack of appropriate management exposes
government-owned computers to cyber threats.

Recommendation 45: Embassy Brasilia should register all dedicated Internet networks at
Consulate Recife with the Bureau of Information Resource Management. (Action: Embassy
Brasilia)

Consulate General Rio de Janeiro

        Information management operations at Consulate General Rio de Janeiro are ably
managed despite difficult circumstances. The building’s physical infrastructure is old and
dilapidated, there was a gap of almost 1 year in one of the two direct-hire information
management positions, and the consulate general hosts the highest number of official visits in the
region.
                                       47
                          SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

               The consulate general building presents unique challenges to information management
       operations, especially related to cabling and other infrastructure components. A team from the
       Bureau of Information Resource Management surveyed the building in September 2012 and
       detailed numerous shortcomings. A planned enterprise integrity & refurbishment project should
       correct the issues to the extent possible in the current facility. Additional challenges presented by
       the physical infrastructure to controlled access areas are detailed in the security annex.

              The information systems center provides effective systems support for consulate users
       and handles the visitor workload well, despite their limited staff and space for staging the
       equipment deployed to accommodate visitors and frequent office moves. The information
       systems storage room is normally stacked to the ceiling with boxes, with the overflow stacked in
       already tight office space.

               Informal Recommendation 42: Embassy Brasilia should designate additional storage
               space for the information systems center at Consulate General Rio de Janeiro.
[Redacted] (b) (5)




               Informal Recommendation 43: Embassy Brasilia should direct Consulate General Rio
               de Janeiro to address the findings in the draft regional computer security officer report.

                One of the personal challenges facing American staff missionwide is the daunting task of
       navigating the Brazilian bureaucracy and commercial representatives necessary to establish
       residential Internet and telephone service. Because of this, the mission has established
       procedures to assist newly arrived American staff with the initial Internet and telephone
       installation and setup in their residences. However, Consulate General Rio de Janeiro is unique
       in that its telephone operator spends approximately 80 percent of her time dealing with these
       issues, including handling personal billing anomalies subsequent to initial setup. She also assists
       spouses with phone setup and support. Guidance in 15 FAM 166 does not authorize such
       services beyond the initial setup.

       Recommendation 46: Embassy Brasilia should direct Consulate General Rio de Janeiro to stop
       providing support from consulate personnel to assist American staff in resolving issues involving
       personal Internet and telephone services. (Action: Embassy Brasilia)

       Consulate General Sao Paulo

              Consulate General Sao Paulo’s information systems center has absorbed the increase in
       workload and system users due to consular growth. Systems staffing is roughly half that of
       Embassy Brasilia, which does not have the same level of consular operations demand. Consular
       systems need constant support, which will require continued involvement by management
       moving forward. As in Consulate General Rio de Janeiro, U.S. direct-hire staffing has also been

                                               48
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

      a challenge. For almost 1 year, the unit was led by a second-tour specialist whose strong
      performance coincided with critical stages in the mission’s growth process.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




              Informal Recommendation 44: [Redacted] (b) (5), [Redacted] (b) (7)(F)


              The telephone technician who maintains the consulate general’s telephone network has
      never received formal telephone training during his 13-year tenure. The telephone network’s
      complexity warrants formal training at the Foreign Service Institute. The lack of formal training
      limits the technician’s ability to provide support services and maintain the telephone network.

              Informal Recommendation 45: Embassy Brasilia should provide training at the Foreign
              Service Institute for the telephone technician at Consulate General Sao Paulo.




                                                49
                                   SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Quality of Life
      Community liaison office services at all posts in Mission Brazil were highly rated in
customer service questionnaires.

       The health units at the embassy and consulates function well. Inspectors agree with the
Office of Medical Services and mission management that, with the growth of the mission,
Embassy Brasilia should be staffed with a regional medical officer.

        Mission Brazil’s school program is rated as the best in the region. The regional security
office has performed security assessments for possible Soft Target Program support. Mission
leadership is actively involved in school board representation, but finding room for its students is
a continuing challenge. To their credit, mission management has been proactive in working with
the Office of Overseas Schools to find solutions and reinforce school relationships.

        The Employee Special Services Association operates only in Embassy Brasilia and
Consulate General Sao Paulo. The Office of Commissary and Recreation Affairs conducted a
review of both associations’ operations in February 2013 and provided training to board
members. The associations are complying with recommendations of the Office of Commissary
and Recreation Affairs on reporting and documentation requirements. The management officers
at the embassy and the consulate function as the Ambassador’s representatives to the association
board of directors.




                                       50
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
Chief of Mission Certification

       The annual certification of internal controls is thorough and includes certification that
mission managers completed risk assessment questionnaires as part of the process. [Redacted]
[Redacted] (b) (5), [Redacted] (b) (7)(F)                                            (b) (5),
                                                                                     [Redacted]
                                                                                     (b) (7)(F)

Separation of Duties

         In Embassy Brasilia, invoices are received by the ordering office or the procurement
office. In Consulates Rio de Janeiro and Recife, the procurement staff receives invoices from the
vendors. Consulate General Sao Paulo recently established the financial management office as
the designated billing office.

       Per 4 FAH-3 H-413.5 b. (1) and (3), purchasing goods and services should be separated
from examining invoices and preparing vouchers. State cable 57938 dated April 12, 2013,
emphasizes the importance of the financial management office taking responsibility for invoices.
Violation of separation of duties increases the risk of error, waste, and wrongful acts.

Recommendation 47: Embassy Brasilia should designate the post financial management offices
as the billing offices for all mission transactions. (Action: Embassy Brasilia)

Subcashiers

        Embassy Brasilia’s Class B cashier was unable to produce records of unannounced cash
counts for subcashiers. In accordance with 4 FAH-3 H-397.1-2, unannounced verifications of a
cashier must be conducted monthly, regardless of the amount of the cash advance. Per 4 FAH-3
H-394.3 a., the regulations which apply to the Class B cashier’s use of the operating cash
advance also apply to subcashiers. This guidance includes requiring that verification officers
complete exhibit 12C of the cashier user guide and include a copy with the subcashier records.
Lack of oversight invites fraud.

Recommendation 48: Embassy Brasilia should require monthly cash counts of subcashiers and
hold the Class B cashier accountable for maintaining full and current documentation of
subcashiers. (Action: Embassy Brasilia)

Locally Employed Staff Certifying Officer

       Embassy Brasilia has not conducted the voucher reviews of the LE certifying officer as
mandated by 4 FAH-3 H-065.2-2. This lack of oversight could result in undiscovered errors and
increases the potential for fraud.

Recommendation 49: Embassy Brasilia should bring oversight of the locally employed staff
certifying officer into compliance with Department of State regulations. (Action: Embassy
Brasilia)

                                          51
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Locally Employed Staff Overtime Compensation

       Mission Brazil paid over $1 million in LE staff overtime costs in FY 2012. Two
individuals received more than $25,000 each in overtime pay. Per 4 FAH-3 H-525.1-2, the
management officer must establish controls for accurate and timely recording and reporting of
time and attendance. The mission’s designation of responsibilities delegates responsibility for
time and attendance to the financial management officer. Nobody monitors LE staff overtime.
Because no one is accountable for controlling overtime costs and procedures, anomalies and
improper overtime approvals go unchallenged. Though overtime has virtually stopped due to
sequestration, proper oversight will be needed once overtime is again in use.

Recommendation 50: Embassy Brasilia should designate one individual to oversee locally
employed staff overtime compensation missionwide. (Action: Embassy Brasilia)

         Informal Recommendation 46: Embassy Brasilia should complete an overtime analysis
         for FY 2012 and share the results with supervisors and with the Interagency Cooperative
         Administrative Support Services council.

Ethics

        Mission Brazil solicits American companies for donations in support of the mission’s
July 4 official celebrations. The majority of the firms are located in Sao Paulo, and the burden of
solicitation falls on the consulate general. FAST officers, almost exclusively from the consular
section, place follow-up calls to companies to ask for donations. These officers also adjudicate
visa applications for employees of these same companies, which could create the appearance of a
conflict of interest.

Recommendation 51: Embassy Brasilia should refrain from assigning officers from within the
consular sections to the task of soliciting donations for July 4 celebrations. (Action: Embassy
Brasilia)

Consular Management Controls

       The consular collections process in Consulates General Sao Paolo and Rio de Janeiro
does not allow sufficient time for the consular subcashier to deposit and the Class B cashier to
prepare the required receipt for funds at the end of the work day. In Consulate General Rio de
Janeiro, the Class B cashier’s work hours end early, which does not allow sufficient time for the
deposit and accounting for consular collections. Guidance in 7 FAH-1 H 734.4 requires that the
process allow adequate time for daily reconciliation, delivery, counting and receipting for the
day’s collections. The Bureau of Comptroller and Global Financial services in its Cashier User
Guide requires Class B cashiers to issue OF-158 collection receipts as the only valid receipt for
funds collected. Failure to correctly receipt for collections is a vulnerability and could
compromise the process.

Recommendation 52: Embassy Brasilia should establish a work schedule that allows consular
subcashiers to close for business one hour before the end of the work day. (Action: Embassy
Brasilia)

                                        52
                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

      Recommendation 53: Embassy Brasilia should implement a cashier work schedule that allows
      for the consular collections to be accounted and receipted on the day of collection. (Action:
      Embassy Brasilia)

             Consulate General Sao Paulo’s consular subcashier and alternate subcashiers do not have
      cash advances for making change. Nor do they have combination lock cash boxes to which they
      have exclusive access.

              Informal Recommendation 47: Embassy Brasilia should provide cash advances and
              combination lock boxes to its consular subcashier and alternate subcashiers and issue new
              designation letters reflecting the amounts of the cash advances.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




      Recommendation 54: [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                53
                                   SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Brasilia should discontinue its policy of requiring the deputy
chief of mission to approve all public affairs grants and return authority for grant management to
the public affairs officers at constituent posts, in consultation with consuls general. (Action:
Embassy Brasilia)

Recommendation 2: Embassy Brasilia should issue written guidance to reporting officers that
reporting should be objective, broadly sourced, and include comments and analysis. (Action:
Embassy Brasilia)

Recommendation 3: Embassy Brasilia should include principal officers from the constituent
posts in weekly country team meetings through digital video conferencing. (Action: Embassy
Brasilia)

Recommendation 4: Embassy Brasilia should include constituent posts in the preparation of
strategic planning documents, including the Integrated Country Strategy and the Mission
Resource Request. (Action: Embassy Brasilia)

Recommendation 5: Embassy Brasilia should develop coordinated and appropriate travel and
representational budgets for all mission sections. (Action: Embassy Brasilia)

Recommendation 6: Embassy Brasilia, in coordination with the Bureaus of Overseas
Buildings Operations and Western Hemisphere Affairs, should investigate all possibilities,
including commercial office space, for a new facility for Consulate General Rio de Janeiro that
meets the 2018 timeline set by the Bureau of Overseas Buildings Operations. (Action: Embassy
Brasilia, in coordination with OBO and WHA)

Recommendation 7: The Bureau of Western Hemisphere Affairs should create a senior
position in its executive office dedicated exclusively to providing oversight of Mission Brazil’s
growth and coordinating with other Department offices. (Action: WHA)

Recommendation 8: Embassy Brasilia, in coordination with the Bureau of Western
Hemisphere Affairs and the Bureau of Human Resources, should create a position in the Brasilia
management section dedicated to providing day-to-day oversight of all new consulate facilities
and operations until they are operational. (Action: Embassy Brasilia, in coordination with WHA
and DGHR)

Recommendation 9: Embassy Brasilia should complete an analysis of its International
Cooperative Administrative Support Services staffing and make adjustments as needed.
(Action: Embassy Brasilia)

Recommendation 10: The Foreign Service Institute, in coordination with the Bureau of
Consular Affairs, should provide language testing for limited non-career appointees who wish to
have additional language test scores on record with the Department of State. (Action: FSI, in
coordination with CA)

Recommendation 11: The Bureau of Consular Affairs, in coordination with the Bureau of
Administration, should issue guidance to consular managers defining the service standards for
                                              54
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Global Support Strategy contractors and explaining how to monitor and report deficiencies to the
contracting officer’s representative. (Action: CA, in coordination with A)

Recommendation 12: Embassy Brasilia should place closed-circuit television monitors into
service at all the contractor’s applicant service centers in Brazil. (Action: Embassy Brasilia)

Recommendation 13: Embassy Brasilia should require all its consular officers to maintain
active credentials for access to the classified system. (Action: Embassy Brasilia)

Recommendation 14: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Brasilia, should install interview windows that are the standard 37 inches high. (OBO,
in coordination with Embassy Brasilia)

Recommendation 15: Embassy Brasilia, in coordination with the Bureau of Overseas
Buildings Operations, should construct a privacy wall to enclose the American citizens services
unit. (Action: Embassy Brasilia, in coordination with OBO)

Recommendation 16: The Bureau of Consular Affairs should amend the provision in 9
Foreign Affairs Manual, Appendix G, 101.3 (c) to clarify at what point a passport is considered
to have left the consular section. (Action: CA)

Recommendation 17: Embassy Brasilia should issue standard language that staff members can
use in responding to requests for expedited return of passports. (Action: Embassy Brasilia)

Recommendation 18: The Bureau of Consular Affairs should revise 9 FAM 41.102 N9.2 to
clarify the definition of high-fraud groups and areas. (Action: CA)

Recommendation 19: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should delay the arrival in Recife of the assigned assistant regional security
officer-investigations until adequate office space is available. (Action: DS, in coordination with
DGHR)

Recommendation 20: Embassy Brasilia should incorporate input from constituent posts in
preparing the national reporting plan. (Action: Embassy Brasilia)

Recommendation 21: The Bureau for Western Hemisphere Affairs, in coordination with the
Bureau of Narcotics and Law Enforcement Affairs and Embassy Brasilia, should provide
Embassy Brasilia with sufficient resources to fulfill its legislated responsibilities for oversight if
the Bureau of International Narcotics and Law Enforcement Brasilia office closes. (Action:
WHA, in coordination with INL and Embassy Brasilia)

Recommendation 22: Embassy Brasilia should implement a cultural diplomacy strategy to
engage the mission with cultural elites and opinion leaders. (Action: Embassy Brasilia)

Recommendation 23: Embassy Brasilia should implement a plan to distribute more
responsibilities of the information office to constituent posts. (Action: Embassy Brasilia)

Recommendation 24: Embassy Brasilia, in coordination with the Bureaus of Western
Hemisphere Affairs and International Information Programs, should implement a plan to

                                        55
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

establish Facebook pages for Consulates General Rio de Janeiro and Sao Paulo. (Action:
Embassy Brasilia, in coordination with WHA and IIP)

Recommendation 25: Embassy Brasilia, in coordination with the Bureau of International
Information Programs, should close the Information Resource Center at Casa Thomas Jefferson.
(Action: Embassy Brasilia, in coordination with IIP)

Recommendation 26: Embassy Brasilia, in coordination with the Bureau of Educational and
Cultural Affairs, should hire a second locally employed regional English language office
assistant. (Action: Embassy Brasilia, in coordination with ECA)

Recommendation 27: The Director General for Human Resources, in coordination with
Embassy Brasilia and the Bureau of Educational and Cultural Affairs, should add language
designation to position number 61111229. (Action: DGHR, in coordination with Embassy
Brasilia and ECA)

Recommendation 28: Embassy Brasilia should require initial and refresher training for
designated contracting officer’s representatives. (Action: Embassy Brasilia)

Recommendation 29: Embassy Brasilia should require that mission housing is clean, safe, and
in good repair upon occupancy. (Action: Embassy Brasilia)

Recommendation 30: Embassy Brasilia should limit the number of hours worked by motor
pool drivers to no more than 10 hours per day. (Action: Embassy Brasilia)

Recommendation 31: Embassy Brasilia should bring its motor vehicle policy into compliance
with the Department of State’s guidance on conducting personal business in a U.S. Government
vehicle. (Action: Embassy Brasilia)

Recommendation 32: Embassy Brasilia should require the use of the online booking tool for
official travel. (Action: Embassy Brasilia)

Recommendation 33: Embassy Brasilia should implement standard operating procedures for
locally employed staff discipline, including terminations. (Action: Embassy Brasilia)

Recommendation 34: Embassy Brasilia should solicit training needs from across the mission,
and implement a comprehensive training plan. (Action: Embassy Brasilia)

Recommendation 35: Embassy Brasilia should review all locally employed staff position
descriptions and update those that are not current and reclassify those positions as needed.
(Action: Embassy Brasilia)

Recommendation 36: Embassy Brasilia should use the approved Ariba system to monitor the
payment process from invoice receipt to final payment. (Action: Embassy Brasilia)

Recommendation 37: Embassy Brasilia should develop performance standards for each step
of the invoice payment process and hold employees accountable for their performance. (Action:
Embassy Brasilia)


                                       56
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 38: Embassy Brasilia should determine whether outsourcing payment
voucher processing would result in cost savings, and share the study with the Interagency
Cooperative Administrative Support Services council.(Action: Embassy Brasilia)

Recommendation 39: Embassy Brasilia should update and redistribute a missionwide mail
policy that establishes internal controls for authorized usage of the diplomatic mail program.
(Action: Embassy Brasilia)

Recommendation 40: [Redacted] (b) (5), [Redacted] (b) (7)(F)




Recommendation 41: [Redacted] (b) (5), [Redacted] (b) (7)(F)




Recommendation 42: Embassy Brasilia, in coordination with the Bureau of Administration,
should clarify the mission policy for personal use of the diplomatic post office and unclassified
pouch to bring it into line with Department of State regulations. (Action: Embassy Brasilia, in
coordination with A)

Recommendation 43: [Redacted] (b) (5), [Redacted] (b) (7)(F)



Recommendation 44: Embassy Brasilia, in coordination with the Bureaus of Western
Hemisphere affairs and Information Resource Management, should implement alternative means
for secure off-site storage of network backups. (Action: Embassy Brasilia, in coordination with
WHA and IRM)

Recommendation 45: Embassy Brasilia should register all dedicated Internet networks at
Consulate Recife with the Bureau of Information Resource Management. (Action: Embassy
Brasilia)

Recommendation 46: Embassy Brasilia should direct Consulate General Rio de Janeiro to
stop providing support from consulate personnel to assist American staff in resolving issues
involving personal Internet and telephone services. (Action: Embassy Brasilia)

Recommendation 47: Embassy Brasilia should designate the post financial management
offices as the billing offices for all mission transactions. (Action: Embassy Brasilia)

Recommendation 48: Embassy Brasilia should require monthly cash counts of subcashiers
and hold the Class B cashier accountable for maintaining full and current documentation of
subcashiers. (Action: Embassy Brasilia)




                                       57
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 49: Embassy Brasilia should bring oversight of the locally employed staff
certifying officer into compliance with Department of State regulations. (Action: Embassy
Brasilia)

Recommendation 50: Embassy Brasilia should designate one individual to oversee locally
employed staff overtime compensation missionwide. (Action: Embassy Brasilia)

Recommendation 51: Embassy Brasilia should refrain from assigning officers from within the
consular sections to the task of soliciting donations for July 4 celebrations. (Action: Embassy
Brasilia)

Recommendation 52: Embassy Brasilia should establish a work schedule that allows consular
subcashiers to close for business one hour before the end of the work day. (Action: Embassy
Brasilia)

Recommendation 53: Embassy Brasilia should implement a cashier work schedule that allows
for the consular collections to be accounted and receipted on the day of collection. (Action:
Embassy Brasilia)

Recommendation 54: [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                      58
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Brasilia should re-engage with locally employed staff
and committees to explore proposals to mitigate the effects of the wage freeze.

Informal Recommendation 2: Embassy Brasilia should post representation and travel budgets
on its intranet site and update them weekly.

Informal Recommendation 3: Embassy Brasilia should survey the resources of its first- and
second-tour officers and specialists and identify individuals to lead working groups to review
processes and plans for the next fiscal year.

Informal Recommendation 4: Embassy Brasilia should identify and fund rental of temporary
office spaces in Recife to relieve overcrowding until new consulate facilities are completed.

Informal Recommendation 5: Embassy Brasilia should develop standard operating procedures
and separate operating budgets for the Belo Horizonte and Porto Alegre staff located in Embassy
Brasilia and Consulate General Sao Paulo.

Informal Recommendation 6: Embassy Brasilia should prepare statements of purpose for the
temporary offices in Belo Horizonte and Porto Alegre and work requirements statements for U.S.
direct-hire and locally employed staffs in those transitional offices, and request concurrence from
Department bureaus and offices involved in the mission’s growth.

Informal Recommendation 7: Embassy Brasilia should complete and send to the Department
its report on the consular limited non-career appointee program in Brazil.

Informal Recommendation 8: Embassy Brasilia should require each of its consular section
managers to analyze the reports of the weekly visits to Global Support Strategy contractor’s
applicant service centers, identify recurring issues, and report them to the contracting officer’s
representative.

Informal Recommendation 9: Embassy Brasilia should require all consular supervisors to
comply with the requirement to document counseling sessions in the automated performance
management system.

Informal Recommendation 10: Embassy Brasilia should assign each locally employed staff
member on the nonimmigrant visa unit teams a performance reviewing officer at the beginning
of the rating period.

Informal Recommendation 11: Embassy Brasilia should maintain and post consular policies,
procedures, calendars, reports, metrics, and other documents on a SharePoint site accessible by
consular officers and locally employed staff.
                                                59
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Brasilia should require all consular sections to hold
periodic meetings to review visa adjudications.

Informal Recommendation 13: Embassy Brasilia should require that fraud prevention units
use locally employed staff to help train consular officers and staff and Brazilian airport
personnel.

Informal Recommendation 14: Embassy Brasilia should assign fraud prevention officers in
the Embassy Brasilia and Consulate Recife consular sections to 1-year rotations.

Informal Recommendation 15: Embassy Brasilia should review the personnel structure of the
office of environment, science, technology and health to determine how best to distribute
portfolios and workload and recommend whether personnel increases are necessary.

Informal Recommendation 16: Embassy Brasilia should better integrate public affairs and
political/economics staffs by requiring that officers attend each other’s weekly staff meetings.

Informal Recommendation 17: Embassy Brasilia should expand its use of blanket travel
orders for public affairs staff.

Informal Recommendation 18: Embassy Brasilia should reissue instructions and train public
affairs staff on the missionwide air travel processing system.

Informal Recommendation 19: Embassy Brasilia should require grants officers
representatives, rather than the program support specialist, to approve the second and third
payments of a grant, once grants funds are certified as sufficient.

Informal Recommendation 20: Embassy Brasilia should provide financial training and
tutorials to staff at constituent posts through regular visits or via digital video conferences.

Informal Recommendation 21: Embassy Brasilia should delegate the conversion of the
contents of hard-copy grants files to a clerical specialist.

Informal Recommendation 22: Embassy Brasilia should implement a travel plan in the public
affairs section that affords travel opportunities to more junior officers.

Informal Recommendation 23: Embassy Brasilia should recruit new participants for the new
media group, especially among first- and second-tour officers and specialists.

Informal Recommendation 24: Embassy Brasilia should eliminate duplication in the work
requirements statements of the management counselor and the deputy management counselor.

Informal Recommendation 25: Embassy Brasilia should establish housing coordinator
positions at the embassy and at Consulate General Sao Paulo.

Informal Recommendation 26: Embassy Brasilia should assess all U.S. Government-owned
properties and develop a strategy to renovate them.

Informal Recommendation 27: Embassy Brasilia should equip dispatchers and motor pool
vehicles with radios.
                                        60
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 28: Embassy Brasilia should comply with the Department of State
requirement for drivers to be medically certified every 2 years.

Informal Recommendation 29: Embassy Brasilia should complete a cost-benefit analysis of
establishing visitors units in Embassy Brasilia and Consulate General Sao Paulo and share the
results with the ICASS council.

Informal Recommendation 30: Embassy Brasilia should assign a second clerk in the embassy
facilities section.

Informal Recommendation 31: Embassy Brasilia should make English language courses
available to LE maintenance staff missionwide.

Informal Recommendation 32: Embassy Brasilia should implement service standards for the
human resources office.

Informal Recommendation 33: Embassy Brasilia should implement a missionwide policy on
official residence expense staff, including employment agreements.

Informal Recommendation 34: Embassy Brasilia should negotiate favorable payment terms
with all vendors.

Informal Recommendation 35: Embassy Brasilia should complete an analysis of late fees
missionwide for FY 2013 and share the results with the Interagency Cooperative Administrative
Support Services council.

Informal Recommendation 36: Embassy Brasilia should coordinate budget planning by
providing funding information to all International Cooperative Administrative Support Services
providers and establishing consensus on spending priorities.

Informal Recommendation 37: Embassy Brasilia should direct Consulate General Rio de
Janeiro to modify the mail room layout to better accommodate pouch bags and mail sorting.

Informal Recommendation 38: [Redacted] (b) (5), [Redacted] (b) (7)(F)



Informal Recommendation 39: Embassy Brasilia should require the consulates to make use of
Embassy Brasilia’s locally developed software applications.

Informal Recommendation 40: Embassy Brasilia should update the Department’s Information
Technology Asset Baseline/iMatrix system with records for each of the locally developed
applications.

Informal Recommendation 41: Embassy Brasilia should designate the information
management officer in Brasilia as the reviewing officer for the systems staff at Consulate Recife.

Informal Recommendation 42: Embassy Brasilia should designate additional storage space for
the information systems center at Consulate General Rio de Janeiro.

                                       61
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 43: Embassy Brasilia should direct Consulate General Rio de
Janeiro to address the findings in the draft regional computer security officer report.

Informal Recommendation 44: [Redacted] (b) (5), [Redacted] (b) (7)(F)


Informal Recommendation 45: Embassy Brasilia should provide training at the Foreign
Service Institute for the telephone technician at Consulate General Sao Paulo.

Informal Recommendation 46: Embassy Brasilia should complete an overtime analysis for FY
2012 and share the results with supervisors and with the Interagency Cooperative Administrative
Support Services council.

Informal Recommendation 47: Embassy Brasilia should provide cash advances and
combination lock boxes to its consular subcashier and alternate subcashiers and issue new
designation letters reflecting the amounts of the cash advances.




                                      62
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
Title                                             Name                 Arrival Date
Ambassador                                        Thomas A. Shannon           02/10
Deputy Chief of Mission                           Todd C. Chapman             06/11
Constituent Posts:
   Rio de Janeiro Consul General                  John S. Creamer            08/12
   Sao Paulo Consul General                       Dennis Hankins             08/12
   Recife Principal Officer                       Usha Pitts                 08/11
Chiefs of Sections:
   Management                                     Charles H. Grover          07/11
   Consular                                       Donald Jacobson            07/11
   Political                                      Stefanie Amadeo            07/12
   Economic                                       James Dudley               08/10
   Public Affairs                                 John Matel                 06/11
   Regional Security (acting)                     Kevin O’Connor             06/12
   Narcotics Affairs                              Matthew Sandelands         07/11
   Environment, Science, Technology & Health      Kirsten Schulz             07/12
   Office of Regional Affairs                     Craig Russell              08/11
Other Agencies:
  Foreign Agricultural Service                    Robert Hoff                08/11
  Animal and Plant Health Inspection Service      Mark Prescott              07/09
  Department of Defense                           Eric Snadecki              06/12
  Defense Attaché Office                          Sam Prugh                  05/10
  Foreign Commercial Service                      Brian Brisson              07/12
  Drug Enforcement Agency                         Alexander Toth             02/09
  Federal Bureau of Investigation/Legal Attaché   Rick Cavalieros            08/11
  U.S. Agency for International Development       Lawrence Hardy             03/11
  Department of Treasury                          William Lindquist          01/13
  Federal Aviation Administration                 Michael W. Brown           07/12




                                      63
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ARSO-I            Assistant regional security officer-investigations

CA                Bureau of Consular Affairs

DCM               Deputy chief of mission

ESTH              Environment, science, technology, and health

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

FAST              First- and second-tour

ICASS             International Cooperative Administrative Support Services

LE                Locally employed (staff)

LNA               Limited noncareer appointment

NIV               Nonimmigrant visa

OBO               Bureau of Overseas Buildings Operations

WHA               Bureau of Western Hemisphere Affairs




                             64
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
      Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
